<html>
<title> - H.R. 5632, A BILL TO PROHIBIT THE IMPORTATION OF CERTAIN LOW- LEVEL RADIOACTIVE WASTE INTO THE UNITED STATES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   H.R. 5632, A BILL TO PROHIBIT THE 
                      IMPORTATION OF CERTAIN LOW-
             LEVEL RADIOACTIVE WASTE INTO THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND AIR QUALITY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2008

                               __________

                           Serial No. 110-119


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
54-899                    WASHINGTON : 2008
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO MACK, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

                 Bud Albright, Minority Staff Director

                                  (ii)
                 Subcommittee on Energy and Air Quality

                    RICK BOUCHER, Virginia, Chairman
G.K. BUTTERFIELD, North Carolina,    FRED UPTON, Michigan
    Vice Chairman                         Ranking Member
CHARLIE MELANCON, Louisiana          RALPH M. HALL, Texas
JOHN BARROW, Georgia                 ED WHITFIELD, Kentucky
HENRY A. WAXMAN, California          JOHN SHIMKUS, Illinois
EDWARD J. MARKEY, Massachusetts      JOHN B. SHADEGG, Arizona
ALBERT R. WYNN, Maryland             CHARLES W. ``CHIP'' PICKERING, 
MIKE DOYLE, Pennsylvania                 Mississippi
JANE HARMAN, California              ROY BLUNT, Missouri
TOM ALLEN, Maine                     STEVE BUYER, Indiana
CHARLES A. GONZALEZ, Texas           MARY BONO MACK, California
JAY INSLEE, Washington               GREG WALDEN, Oregon
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          MICHAEL C. BURGESS, Texas
JIM MATHESON, Utah                   JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)
                                 ------                                

                           Professional Staff

                     Sue D. Sheridan, Chief Counsel
                        John W. Jimison, Counsel
                   Rachel Bleshman, Legislative Clerk
                    David McCarthy, Minority Counsel
  


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     1
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     2
Hon. Jim Matheson, a Representative in Congress from the State of 
  Utah, opening statement........................................     4
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     5
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     6
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     7
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     9
Hon. Bart Gordon, a Representative in Congress from the State of 
  Tennessee, opening statement...................................    10
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    11
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................    12
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................    12

                               Witnesses

Margaret M. Doane, Director, Office of International Programs, 
  U.S. Nuclear Regulatory Commission.............................    13
    Prepared statement...........................................    15
    Answers to submitted questions...............................   186
Kent J. Bradford, chairman, Utah Radiation Control Board.........    26
    Prepared statement...........................................    28
R. Steve Creamer, chairman and chief executive officer, 
  EnergySolutions................................................    58
    Prepared statement...........................................    61
    Answers to submitted questions...............................   191
Gene Aloise, Director, Natural Resources and Environment, U.S. 
  Government Accountability Office...............................   134
    Prepared statement...........................................   136

                           Submitted Material

Northwest Interstate Compact, letter of March 16, 2008, submitted 
  by Mr. Matheson................................................   165
Committee on Science and Technology, letter of February 12, 2008, 
  to U.S. Nuclear Regulatory Commission, submitted by Mr. Gordon 
  through Mr. Matheson...........................................   173


  H.R. 5632, A BILL TO PROHIBIT THE IMPORTATION OF CERTAIN LOW-LEVEL 
                RADIOACTIVE WASTE INTO THE UNITED STATES

                              ----------                              


                         TUESDAY, MAY 20, 2008

                  House of Representatives,
            Subcommittee on Energy and Air Quality,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Rick 
Boucher (chairman of the subcommittee) presiding.
    Members present: Representatives Boucher, Butterfield, 
Melancon, Barrow, Inslee, Matheson, Gordon, Dingell (ex 
officio), Upton, Hall, Whitfield, Shimkus, Walden, and 
Blackburn.
    Staff present: Sue Sheridan, John Jimison, Laura Vaught, 
Bruce Harris, Chris Treanor, Rachel Bleshman, Alex Haurek, 
David McCarthy, and Garrett Golding.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. The Committee will come to order.
    Today the subcommittee holds a hearing on a bipartisan 
measure which has been introduced by three of our colleagues on 
this committee: the gentleman from Tennessee, Mr. Gordon; the 
gentleman from Utah, Mr. Matheson; and the gentleman from 
Kentucky, Mr. Whitfield. The legislation they have introduced 
would prohibit the importation of low-level radioactive waste 
into the United States from other countries unless the 
President determines that the importation is necessary to 
national security or for international policy reasons.
    The Low-Level Radioactive Waste Policy Act of 1980 and the 
successor amendments adopted to that law in 1985 established 
the definition of low-level radioactive waste and set the 
national policy that each state take responsibility for 
disposing of the waste that is generated within its borders. 
The 1985 Act also encouraged States to enter into interstate 
compacts under which a group of States would agree to develop a 
common site for the disposal of the waste generated within 
their borders. The Act further authorizes the compact to 
exclude from that common site waste that is produced from 
outside the member States.
    Currently, there are three active licensed facilities for 
disposing of low-level radioactive waste: one in Barnwell, 
South Carolina; one in Richland, Washington; and a commercial 
facility in Clive, Utah, which is operated by EnergySolutions. 
The Clive, Utah, facility is licensed by the State of Utah in 
that State's capacity as a Nuclear Regulatory Commission 
agreement State. There is ongoing controversy as to whether the 
Utah facility may be subject to authority of the Northwest 
Compact as well.
    EnergySolutions has filed a license application with the 
NRC to import up to 20,000 tons of various types of materials 
from decommissioned nuclear facilities in Italy. The company 
proposes to process and recycle the material at its Bear Creek 
facility in the State of Tennessee, and after treatment in 
Tennessee, the company proposes to send the remaining waste to 
its Utah facility for permanent disposal.
    The pending application before the NRC is currently the 
subject of an open comment period, which closes on June 10 of 
this year. That pending application has been the source of 
considerable controversy. The State of Utah has expressed its 
opposition to the application. The Northwest Compact has 
recently taken action also in opposition to the application, 
and EnergySolutions has filed suit in U.S. District Court in 
Utah requesting a declaratory judgment.
    While the legislation that is the subject of today's 
hearing is not limited to the application that EnergySolutions 
has filed to import from Italy low-level waste for processing 
in Tennessee and ultimate disposal in Utah, the legislation 
does bear upon the matters in controversy, which have been 
raised with regard to that pending application.
    In addition, there have been concerns expressed by some 
with regard to the current capacity of low-level radioactive 
waste disposal facilities within the United States, the 
sufficiency of those sites for both current and future domestic 
disposal needs and how the importation of waste from other 
nations could affect the capacity of disposal facilities in the 
United States.
    Today's hearing will provide valuable information on the 
process under current law for the potential importation of low-
level radioactive waste and will inform the subcommittee as to 
the appropriateness or necessity of any further congressional 
action.
    That concludes my opening statement.
    Mr. Boucher. I now recognize for 5 minutes the ranking 
member of this subcommittee, the gentleman from Michigan, Mr. 
Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman, and as a strong 
supporter of nuclear power, I would hope that today's hearing 
on importing low-level waste is just a first step towards 
discussing the larger issue of long-term storage of spent 
nuclear fuel or the nuclear fuel cycle. I see the bill at the 
center of this hearing as a NIMBY, not in my backyard, issue 
that could serve as a distraction from the coming nuclear 
renaissance many of us are fighting for. I look forward to 
upcoming hearings on building new nuclear power plants, 
recycling spent fuel, and certainly the successful completion 
of Yucca Mountain.
    While I have great respect for my friends on the other side 
who introduced this legislation, I am concerned that it could 
be used by the opponents of nuclear power to delay new plants 
from coming online and cause perhaps further roadblocks to the 
recycling and safe disposal of spent fuel and low-level waste. 
Despite what the proponents of this legislation may claim 
today, this isn't necessarily about importing waste from Italy, 
which happens to be identical to the domestic waste safely 
being processed and disposed of today. This is about shutting 
down all of our domestic processing and disposal capabilities 
and eventually the mothballing of all our zero-emissions 
nuclear power plants.
    In a statement last November, Mr. Gordon said, ``I don't 
want Tennessee to become the Nation's and now the world's 
nuclear dumping ground.'' Waste is not being dumped in 
Tennessee, it is being processed and recycled there before it 
is safely disposed of at a privately owned site in Utah. If the 
opponents of nuclear energy were successful in shutting down 
the recycling facility in Oak Ridge, Tennessee, it would have a 
devastating impact on the 104 nuclear reactors that are 
operating right now in this country. Low-level radioactive 
material from nearly all 104 domestic nuclear plants is sent to 
Bear Creek for processing and Clive, Utah, for safe storage. We 
cannot compete on a global scale if we shut down our domestic 
facilities.
    Members of this very subcommittee represent 18 different 
States that send waste to be processed and stored by 
EnergySolutions at their facilities. For myself, I have two 
nuclear plants in my district that send their low-level waste 
across State lines for processing and storage. These services 
are essential to the success of nuclear power.
    We know that nuclear power is safe, clean, and affordable, 
and by enhancing our use of nuclear, we can reduce greenhouse 
gas emissions, protect the environment, and achieve more energy 
independence. Nuclear power produces only 20 percent of our 
electricity but represents a staggering 70 percent of the 
Nation's zero-emissions power, and by blocking the safe 
disposal and recycling of waste, we are taking our eye off the 
ball and distracting ourselves from one of the most effective 
domestic energy sources to fight climate change.
    Unfortunately, at issue today is low-level waste, while the 
real issue for us to address should be fulfilling our 
commitment to permanently and safely storing spent nuclear fuel 
deep inside Yucca Mountain in the Nevada desert. Spent nuclear 
fuel as well as low-level waste should be located at one site 
deep within the bedrock of the Nevada desert for tens of 
thousands of years rather than in temporary stockpiles 
scattered through 31 different States.
    An issue I would like to see the subcommittee address is 
the great capability of reprocessing spent nuclear fuel. 
Through advanced technologies that reduce the volume, heat, and 
toxicity of used nuclear fuel, it is possible to separate the 
uranium from the spent fuel to once again power commercial 
nuclear reactors. With our current once-through fuel cycle, an 
individual's lifetime footprint of spent fuel is about the size 
of a soda pop can. Using proven recycling technology, we would 
be able to reduce the volume of our spent nuclear fuel 
footprint 95 percent to that of a Kennedy half dollar. It is my 
hope that we can take advantage of these exciting technologies 
that will allow us to not only extract more power from nuclear 
fuel but also dramatically reduce the amount of spent fuel 
across the Nation, and I look forward to working with my 
friends on both sides of the aisle and in the House and the 
Senate on this committee to produce legislation that we 
hopefully can get to the President's desk yet this year.
    It is imperative that clean nuclear power is at the 
forefront as we seek to solidify our Nation's energy supply and 
foster a new era of energy independence and reduced emissions. 
As applications for 32 nuclear plants are expected over the 
next couple of years, we are on our way to fulfilling our 
commitment to safe, clean nuclear power. Not only will our 
environment be better for it, our national security will also 
be bolstered. Millions of households will be powered by clean, 
zero-emission nuclear power and our Nation's economy will be 
powered by nuclear as well. Nuclear energy is the right course 
and we will all be better for it.
    I yield back the balance of my time.
    Mr. Boucher. Thank you very much, Mr. Upton.
    The gentleman from Utah, Mr. Matheson, is one of the lead 
sponsors of H.R. 5632, and I am pleased to recognize him now 
for 3 minutes.

  OPENING STATEMENT OF HON. JIM MATHESON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Matheson. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I would like to thank our committee 
colleagues, Bart Gordon of Tennessee and Ed Whitfield of 
Kentucky, for their leadership on this issue.
    Mr. Chairman, as you described in your opening statement, 
it was in 1980 when Congress started to address the problem of 
finding adequate disposal space for low-level radioactive waste 
generated in the United States. Now, let us be clear. This is 
waste that is generated as a byproduct of nuclear power 
generation and it includes debris and contaminated soils also 
from decommissioning of power plants. When Congress enacted 
legislation that allowed States greater freedom to determine 
and control access to the disposal sites, they did so through a 
regional compact system. In this way, States could pull 
together to limit access to a disposal site to membership in a 
compact or they could choose to grant wider access as needed.
    Why are we here today? Because the problem we face now was 
not anticipated during the 1980s. The question is, does the 
current system provide the Federal Government or the States 
with the authority to oversee the importation of foreign-
generated radioactive waste? It sounds like a strictly academic 
question because it is difficult for most of us to see why we 
would want to ever take radioactive waste from other countries, 
but right now the Nuclear Regulatory Commission has a pending 
application before it to allow 20,000 tons of low-level nuclear 
waste from Italy to be imported into this country.
    We have two challenges to deal with here. We have the 
question of the disposal capacity in this country to deal with 
domestic-produced waste and we also have an unclear regulatory 
process for overseeing disposal of international waste. First 
of all, there are only three places in the United States where 
low-level waste can be disposed of. Although there have been 
efforts to site more storage locations, the process is 
complicated and requires a long lead time and a willing local 
community. Furthermore, as Congress looks to develop new 
carbon-free emissions sources, it is clear that new nuclear 
power plants will be built in the United States. Therefore, it 
is critical for Congress to look at our national capacity to 
deal with our own low-level waste disposal needs instead of 
encouraging large-scale waste importation from Europe.
    The real problem we face today is also on the regulatory 
front. Everyone seems to be pointing their finger at someone 
else saying who is in charge. The NRC says it does not have the 
authority to prohibit the importation of waste into the United 
States. The State of Utah opposes this but it doesn't have the 
authority on its own to do so. The Northwest Compact has voted 
against bringing it here but the company trying to bring the 
waste in has already sued the Northwest Compact saying that the 
Northwest Compact does not have the authority to bring this 
waste in. So we have, in my opinion, a regulatory mess not 
anticipated in the 1980s and that is why it is important we 
consider this legislation today.
    What is going on here? It seems to me at first glance the 
answer to the question should be obvious. The Federal 
Government has control over items being imported into this 
country. However, when it comes to radioactive waste, as I have 
stated, there appears to be uncertainty about who is in charge, 
who has the role to regulate whether this is a good decision or 
not. I hope this hearing can shed some light on this issue. The 
record clearly indicates that the establishment of the compact 
system was to find a way to dispose of domestic low-level 
radioactive waste. However, along the way, foreign waste was 
also allowed into the country for disposal in small amounts. We 
are here now because it seems as though the lack of clear 
policy has provided opportunities for importation of larger 
quantities of international waste. This is an opportunity to 
figure out what is really going on and to see if there are 
really any good reasons to encourage the importation of large 
amounts of low-level nuclear waste into the United States.
    Mr. Chairman, thank you for holding this hearing, and I 
look forward to the question period later.
    Mr. Boucher. Thank you very much, Mr. Matheson.
    Another author of H.R. 5632 is the gentleman from Kentucky, 
Mr. Whitfield, who is now recognized for 3 minutes.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Chairman, thank you very much for holding 
this important hearing and, as you say, I am one of the 
cosponsors of this legislation with Mr. Matheson and Mr. 
Gordon, and I think it is imperative that we hold this hearing 
to get the viewpoints of all the relevant parties to this 
important issue. I for one, the last thing that I want to be 
involved in is to do anything that would discourage the 
promotion of nuclear energy in this country, and I do have 
concerns that Mr. Matheson pointed out though, and that relates 
to capacity and the seeming confusion about who has authority 
to allow low-level waste in and the precise process that must 
be involved in reaching a decision on some of those issues.
    I also want to commend EnergySolutions for the great job 
that they have been doing at Paducah, Kentucky, at the site of 
the Paducah gaseous diffusion plant and the coordination of the 
DUF-6 plant that is being built there. I think they have done a 
tremendous job there, and I do appreciate Mr. Creamer coming in 
and talking to me also about this issue.
    So I think this will be an important hearing. It will shed 
a lot of light on this issue, Mr. Chairman, and with that, I 
will yield back the balance of my time.
    Mr. Boucher. Thank you very much, Mr. Whitfield.
    The gentleman from Louisiana, Mr. Melancon, is recognized 
for 3 minutes.
    Mr. Melancon. I waive.
    Mr. Boucher. The gentleman waives his opening statement.
    Any member who chooses to waive the opening statement will 
have 3 minutes of questioning time added to that Member's time 
for questioning the first panel of witnesses.
    The gentleman from Georgia, Mr. Barrow, is recognized for 3 
minutes.
    Mr. Barrow. I thank the Chair, and I will also waive.
    Mr. Boucher. The gentleman waives his opening statement.
    I will recognize Mr. Gordon as soon as possible. Under the 
rules of the subcommittee, since he is not a member, we need to 
have all of the members have the opportunity to make opening 
statements first, but we will come to you and we welcome you 
here this morning.
    The Chair is pleased to recognize, if he is ready, the 
gentleman from Michigan, Mr. Dingell, who is chairman of the 
full committee, and we would welcome his opening statement of 5 
minutes.
    Mr. Dingell. I would like to defer for just a second, 
because I have a very distinguished group here from Tubingen, 
Germany, that I would like to introduce to the Committee. I 
want to make sure they are all in the room before I mention 
them.
    Mr. Boucher. OK. If you like, we will have another member 
offer a statement before we----
    Mr. Dingell. If you please, Mr. Chairman.
    Mr. Boucher. Thank you, Mr. Chairman.
    The gentleman from Texas, Mr. Hall, is recognized for 3 
minutes.
    Mr. Hall. If Mr. Barton, we are on different sides to this, 
but if he is hurt for time, I would yield to him. All right, I 
will waive then and take the same deal you made Mr. Melancon.
    Mr. Boucher. Mr. Hall waives his opening statement.
    The gentlelady from Tennessee, Ms. Blackburn, is recognized 
for 3 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Ms. Blackburn. Thank you, Mr. Chairman, and I will be very 
brief. I do want to thank you for the hearing and I want to 
thank our witnesses for taking the time to come and testify 
before the Committee, and the issue that we are going to 
discuss today is very important to my home State of Tennessee 
and I know that Congressman Gordon will probably speak more 
eloquently to some of those issues, and some of my colleagues 
are very concerned about the importation of low-level 
radioactive waste from foreign countries and how that can be 
processed within the United States and they believe that it may 
set a precedent where our Nation becomes a depository of this 
waste, and I think the real question before us today is going 
to be whether the processing and disposal of foreign-generated 
radioactive waste will significantly impact the disposal of 
U.S.-generated waste.
    So we will have some questions for you. We are looking 
forward to a robust discussion. We are looking forward to 
addressing some of the myths, the facts and the circumstances 
and how this affects our constituents in Tennessee.
    I thank you for your time, and Mr. Chairman, I yield back.
    Mr. Boucher. Thank you, Ms. Blackburn.
    The gentleman from Michigan, Mr. Dingell, chairman of the 
full committee, is recognized for 5 minutes.
    Mr. Dingell. Mr. Chairman, I will be speaking out of order 
and I ask your permission there to do.
    Mr. Boucher. Without objection.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, we are honored this morning to 
welcome Ms. Caroline Melchers and Mr. Jacob Lerman. Ms. 
Melchers and Mr. Lerman are both American citizens but they are 
here with a very distinguished group of citizens of the Federal 
Republic of Germany from the city of Tubingen, a great 
university town and a wonderful part of that great country. As 
everyone knows, Germany is a great friend of the United States 
and we have not just a historic and a great friendship with our 
German friends but also a wonderfully cooperative relationship 
with that wonderful country.
    I would like to observe that our guests this morning are 
from an organization--my German is not very good but I hope all 
will forgive me--Freunderstatz Partnershoft Tubingen. Tubingen 
is a sister city of Ann Arbor, which is a very important 
community in the district that I happen to have the honor to 
serve. They are here to learn about the United States. I told 
them our culture isn't quite as good as that which we would 
find in Germany, but I observed also that they are certainly 
very, very welcome here and we are honored that they would come 
over here. They wanted to see a committee at work and I have 
not had a chance to tell them that this is the greatest of the 
committees in the Congress. It is also, as we all know, not 
only the greatest but also the oldest and it is one that has 
been chaired by men like Sam Rayburn and some of the giants of 
this institution.
    Having said that, I would like to thank you for your 
courtesy in welcoming them and in making it possible for me to 
do so. I would like to also thank my colleagues for their 
courtesy to me in permitting me to use this time and I would 
like also to express our welcome to our friends from Tubingen 
and Ms. Melchers and Mr. Lerman.
    So ladies and gentleman, I hope you feel welcome, and thank 
you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Dingell, and I also 
would like to extend the subcommittee's welcome to our 
distinguished guests from the Federal Republic of Germany this 
morning.
    The gentleman from Illinois--Mr. Dingell, did you have 
something else you wanted to say? No, apparently not. Mr. 
Dingell?
    Mr. Dingell. Mr. Chairman, I guess that I will address the 
business that I was going to address this morning. I want to 
thank you for this hearing, and I also want to observe less 
with regard to the business of the committee today than the 
comments that I think we would all want to make about a very 
distinguished member of our staff. All of us know of the 
extraordinary work that Sue Sheridan has done for this 
committee and for this country during her service here as our 
chief counsel for Energy and Air Quality. Sue announced last 
week she is retiring after 28 years of Federal service, this in 
spite of my best efforts to see to it that she did not carry 
forward on that threat. Sue leaves behind an extraordinary 
record of government service beginning in the General Counsel's 
Office at the Department of Energy to the Domestic Policy 
Council in the White House, and finally to this committee. She 
served here from 1983 to 1994 as attorney for the Subcommittee 
on Energy and Power chaired by our distinguished friend, Phil 
Sharp, and later joined the full committee staff where for the 
last 14 years she served both in the Minority and the Majority, 
and she has been a senior counsel and chief counsel for energy 
where she has guided us well and served the country, the 
Congress and the Committee with distinction.
    She is, as we all know, a consummate professional. She is 
always ready with the facts, with sage advice, and respectful 
of the committee and its members regardless of party 
affiliation. All of us know her as a superb lawyer whose 
analytic capabilities and whose advice have served all of us 
well every time we had had the opportunity to call upon her. 
There are few energy statutes that she hasn't worked on and 
that haven't benefited from her very careful, thorough, 
thoughtful, and decent approach to legislation and to her 
respect for the law.
    I know that I speak for all of our members who have worked 
with Sue over the years, and when I say that she will be 
missed, it is indeed an understatement. On behalf of myself, 
Sue, and on behalf of the Committee and on behalf of the 
Subcommittee and on behalf of the people here with whom you 
have worked and for whom you have worked, I want you to know 
that you have served well with distinction, with ability, with 
decency, with dedication, and we are proud of the work that you 
have done. Stand up, Sue, so we can give you a round of 
applause.
    I will make two observations. One is, it is not too late 
for you to reconsider, and two, if you want to come back, the 
door will be open.
    Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Dingell, and I want 
to add my voice to that eloquent tribute to the work of Sue 
Sheridan over the many years that she has served this 
subcommittee and the full Committee on Energy and Commerce. We 
have all benefited tremendously from the advice that she has 
offered to members on both sides of the aisle. I don't think 
anyone surpasses Sue's expertise on matters of energy policy, 
and as Chairman Dingell indicated, she has her fingerprints on 
all of the energy policy that has been approved by this 
committee and by the Congress in recent years. We are going to 
miss that advice and counsel and we look forward to continuing 
our consultation with Sue in whatever career path she chooses. 
So best wishes to you, Sue, and thank you for your many years 
of service.
    The gentleman from Illinois, Mr. Shimkus, is recognized for 
3 minutes.
    Mr. Hall. I ask unanimous consent just to say a word about 
Sue.
    Mr. Boucher. Without objection, the gentleman from Texas, 
Mr. Hall, is recognized.
    Mr. Hall. You mentioned both sides of the aisle, and I have 
been on both sides of the aisle. I too worked with Sue probably 
longer than more than anyone other than Mr. Dingell. She is a 
professional. She is not only of great service to this 
committee, to this Congress, to this Nation, but she is capable 
of friendship, and when I heard, Mr. Chairman, you say that she 
was going to go home, I just have one question about that. Why 
didn't I think of that?
    I yield back my time. Sue, God bless you.
    Mr. Boucher. Thank you, Mr. Hall.
    The gentleman from Illinois, Mr. Shimkus, is recognized for 
3 minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. I wanted to be the 
first Republican to speak, but of course, Mr. Hall beat me to 
the punch. I too just want to concur. Sue has been a good 
friend and someone I could rely upon, and I will personally 
miss her friendship and her support. So I thank you for doing 
that, Chairman Dingell, and raising our awareness of that.
    And our German friends are leaving now, but I wanted to 
tell them, I lived in Bamberg for 3 years, so we are headed to 
the NATO parliamentary assembly with Melancon, I hope, in 
Berlin to talk about our relationships in NATO, so I also want 
to welcome you here.
    And Mr. Chairman, I will just end. I understand the 
importance of this legislation, this bill. I would more hope 
that we talk about a more pressing level, which would be high-
level nuclear waste and the storage. If we want to increase 
electricity supply in this country, one of the best ways we can 
do that is move high-level nuclear waste offsite and to a long-
term storage facility. My preference would be Yucca Mountain. 
But this is a pattern of nipping around the edges where we 
really need to expand electricity generation and low-cost power 
in this country, and some would say in an environmentally sound 
way, which would be without a carbon footprint. That is what we 
really need to do and send a signal.
    I support this hearing and I want to welcome those who will 
testify. I hope to learn a lot on that behalf. With that, I 
yield back my time.
    Mr. Boucher. Thank you very much, Mr. Shimkus.
    Mr. Inslee was here and is no longer here. The gentleman 
from Tennessee, Mr. Gordon, not a member of the subcommittee 
but a valuable member of our full committee and chairman of the 
Committee on Science and Technology and a coauthor of the 
legislation pending before the subcommittee, is recognized for 
3 minutes.

  OPENING STATEMENT OF HON. BART GORDON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Gordon. Thank you very much, and let me first thank 
you, Chairman Boucher, for calling this hearing and Ranking 
Member Upton for allowing us to have this today.
    Let me also concur with Chairman Dingell and the others 
that have given accolades to Sue Sheridan. Sue clearly is an 
exemplary example of a public servant. I remember when she--I 
have been with her most of those 28 years and I remember when 
she gracefully with twins would walk up and back, still giving 
us good advice, and now to think they are on their way to 
college, it makes all of us feel like we are getting older 
here. But thank you, Sue, for what you have done.
    Nuclear waste disposal is a challenging but important issue 
for Congress to address. As we discuss the issues of low-level 
waste management today, I want to make clear that my concern is 
about importing radioactive waste into this country. I am not 
antinuclear. Nuclear power has a role to play as we search for 
ways to meet our Nation's growing electricity demand and at the 
same time reduce our greenhouse gas emissions and ensuring we 
have somewhere to dispose of our domestic radioactive waste is 
critical.
    And to my friend from Michigan, Mr. Upton, who raised me in 
his opening comments, let me make it perfectly clear, I don't 
want there to be any misunderstanding: I have no interest in 
closing down Bear Creek. This bill has nothing to do with 
shutting down any type of waste facility within this country. 
This bill is about helping your nuclear power plants in 
Michigan be sure there is a place for their low-level 
radioactive waste to go so that they are not shut down. This is 
what this bill is about. This bill is to help you help Michigan 
and to help our domestic facilities.
    So here are the facts. Domestic use of radioactive 
materials produces a continuous stream of low-level radioactive 
waste. This stream is going to inevitably grow. The United 
States has only limited space for disposal of nuclear waste. 
There is an international shortage of disposal space. Many 
countries including Germany, Canada, Belgium, Switzerland, 
Mexico, the Netherlands, Italy, and Denmark do not have any 
disposal facilities for their waste. What is more, none of the 
nuclear waste-generating countries allow foreign waste to be 
imported to dispose of except the United States. If we welcome 
the importation of foreign radioactive waste for disposal, it 
is only natural that all of these countries will be happy to 
send their waste and let us deal with it for over 100 years.
    EnergySolutions has made it clear that it intends to 
solicit this international business. The following are taken 
from the company's recent SEC filings, and I quote: ``Our 
business is dependent upon the success of our international 
operations. We expect that our international operations will 
continue to account for a significant portion of our total 
revenues. We believe there are substantial near-term 
opportunities for us to market our nuclear services to 
international commercial and government customers including the 
provisions of specialized decommissioning and disposal 
services.''
    This may make sense for the company's bottom line but it 
isn't smart public policy for the United States. The argument 
that the United States must take everyone else's nuclear waste 
to protect the earth from global warming and to be a good 
steward of the earth just doesn't wash. All countries including 
Italy have those same responsibilities.
    That is why I have joined with Mr. Matheson and Mr. 
Whitfield, two of my colleagues on this committee, in this 
bipartisan legislation to prohibit the importation of low-level 
radioactive waste. This bill brings us in line with the rest of 
the world. EnergySolutions' attempt to import 2,000 tons of 
waste from Italy showcases a serious gap in our national policy 
and a serious need for this bill because this is only the 
beginning of what could be a massive commercial business.
    Some might argue the Nuclear Regulatory Commission should 
decide whether importing waste is appropriate, but the NRC has 
made it clear that it doesn't have the authority to make policy 
decisions about importing nuclear waste. Others might suggest 
that we should leave the decision to the interstate compacts 
but EnergySolutions has filed a lawsuit arguing that the 
compacts don't have authority over importing nuclear waste. The 
fact of the matter is, nuclear waste management is a national 
issue and we need a national policy.
    Here is the bottom line. Importing foreign radioactive 
waste reduces our finite domestic storage capacity, creates a 
100-year-plus obligation for storage and protection, which 
could fall upon the American taxpayer since few companies are 
in existence for that long, and is a bad idea. Congress needs 
to act to stop it and our bipartisan bill helps do just that.
    I yield back the balance of my time.
    Mr. Boucher. Thank you very much, Mr. Gordon.
    The gentleman from Michigan, Mr. Upton, is recognized for a 
unanimous-consent request.
    Mr. Upton. Mr. Chairman, I would ask unanimous consent that 
this opening statement by our ranking member, Joe Barton, be 
put into the record at this time.
    Mr. Boucher. Without objection, and all opening statements 
that members may desire to make and submit for the record will 
be received and printed in the record of the hearing.
    [The prepared statement of Mr. Barton follows:]

                      Statement of Hon. Joe Barton

    Mr. Chairman, thank you for holding this important hearing 
today. Along with other members of this Committee and this 
Congress, I've had questions about importing low-level 
radioactive waste. I hope that this hearing will help us 
separate the wheat from the chaff, and I look forward to 
hearing the testimony from our witnesses.
    We need to keep three important points in mind as we 
consider low-level radioactive imports: safety, security, and 
capacity.
    The first and most important question is whether the the 
process of importing, recycling, and storing this stuff is 
safe. The answer we'll hear from a company in the industry is 
``yes.'' The answer we'll hear from the Nuclear Regulatory 
Commission (``NRC'') is ``yes, or we won't grant the license.''
    On the issue of security, the question is whether there is 
any increased risk from terrorism or other factors. I hope the 
NRC's response will be that ``if there were such a risk we 
wouldn't have granted the import licenses we've already granted 
and if any future application poses this risk we won't grant 
that license.''
    And regarding capacity, the question is whether imports 
might crowd out domestic requirements. I understand that both 
the NRC and GAO will say that capacity for this type of waste 
is not a problem in the near term or long term.
    Mr. Chairman, the rhetoric of prohibiting imports of low-
level radioactive waste for recycling and storage has 
undeniable political appeal. But, as Members of the Committee 
with jurisdiction over this issue, we are obligated to consider 
more than just the politics. Ultimately, good policy makes good 
politics, so we need to know the facts, too.
    Radioactive leftovers, whether they come from a nuclear 
power plant or a dentist's office, are a federal matter. As 
such, I think it would be ill-conceived to allow state or local 
governments or, for that matter-regional compacts-to dictate 
U.S. trade policy. If any of these entities has a safety, 
security, or capacity concern, we need to fully understand it.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
                              ----------                              

    Mr. Boucher. The gentleman from Washington State, Mr. 
Inslee, is recognized for 3 minutes.

   OPENING STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you. I just want to express a concern 
about current proposals that would really eviscerate the 
interstate compact system, and it is of great concern because 
we could have anarchy on this issue without these compacts. We 
have had a compact. It has been honored by the States and now 
it is being attempted to be dishonored, and that is very 
disappointing both because of the sovereign interests of the 
States but on a national level. These compacts have served well 
to bring some sense of rationality to these decisions, and when 
one party here attempts to essentially ignore them, I don't 
think it is helpful and I look forward to this hearing to 
expose the real problem of one entity trying to overcome and 
essentially bully these interstate compacts.
    Thank you.
    Mr. Boucher. Thank you, Mr. Inslee.
    The gentleman from North Carolina, Mr. Butterfield, is 
recognized for 3 minutes.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much, Mr. Chairman, for 
convening this hearing and I want to thank the gentlemen for 
offering this bill. I have read it. I have read the material 
associated with it. I think it is certainly very timely. I look 
forward to the hearing today. I cannot imagine, but maybe there 
is something that I have not read that would help me understand 
this issue. I thank you, Mr. Gordon.
    I yield back.
    Mr. Boucher. Thank you, Mr. Butterfield.
    We now turn to our first panel of witnesses, and we welcome 
the testimony of both of them this morning. Ms. Margaret Doane 
is the Director of the International Program at the United 
States Nuclear Regulatory Commission, and Mr. Kent Bradford is 
chairman of the Utah Radiation Control Board. Without 
objection, your prepared written statements will be made a part 
of the record. We welcome your oral summary and ask that you 
keep that to approximately 5 minutes.
    Ms. Doane, we will be pleased to begin with you.

      STATEMENT OF MARGARET M. DOANE, DIRECTOR, OFFICE OF 
   INTERNATIONAL PROGRAMS, U.S. NUCLEAR REGULATORY COMMISSION

    Ms. Doane. Thank you. Mr. Chairman and members of the 
subcommittee. As stated, my name is Margaret Doane and I am the 
Director of the Office of International Programs at the U.S. 
Nuclear Regulatory Commission. My office is responsible for 
reviewing the import and export license applications and 
issuing licenses pursuant to NRC's import and export licensing 
regulations.
    My focus today will be on the NRC's regulatory framework 
for licensing the import of low-level radioactive waste. I 
would like to thank you in advance for providing the NRC with 
the opportunity today to discuss our import licensing process. 
As requested, we provided the prepared testimony for the record 
that describes in detail NRC's regulatory framework for 
licensing the import of low-level radioactive waste. At this 
time I will highlight key elements of that testimony.
    The NRC reviews import and export license applications 
against the criteria defined in its regulations. Specifically, 
the NRC bases its licensing decisions on the following three 
criteria. First, the proposed import will not be inimical to 
the common defense and security, second, the proposed import 
will not constitute an unreasonable risk to public health and 
safety, and third, an appropriate facility has agreed to accept 
the waste for management or disposal
    The NRC determines whether or not to issue an import 
license for radioactive waste based on its own health and 
safety and common defense and security evaluation. The NRC's 
evaluation is formed only after consulting with the Executive 
Branch through the Department of State, the applicable host 
State and the applicable low-level radioactive waste compact 
and consideration of public comments. The NRC has exclusive 
jurisdiction within the United States for granting or denying 
licenses to import radioactive waste. The NRC, however, 
recognizes the legal authority of the relevant host State and 
low-level radioactive waste compact to accept or reject low-
level radioactive waste for disposal or management in the 
compact region.
    Accordingly, the NRC consults with the applicable host 
State and regulatory officials for their health and safety 
views on the proposed import and to confirm that the proposed 
import of radioactive waste is consistent with the State-issued 
possession license for the disposal facility. Likewise, the NRC 
consults the applicable low-level radioactive waste compact 
commission to determine whether the compact will accept out-of-
compact waste for disposal in a regional facility. To ensure 
that no radioactive waste imported into the United States 
becomes orphaned waste, the NRC will not grant an import 
license for waste intended for disposal unless it is clear from 
these consultations that the waste will be accepted by the 
applicable host State and, where applicable, the low-level 
radioactive waste compact.
    As requested by the Subcommittee, I would like to turn to 
questions regarding disposal capacity for low-level waste in 
the United States. In the short term, the NRC has not 
identified capacity issues with regard to Class A disposal at 
EnergySolutions' Clive, Utah, facility. In reviewing waste 
import applications, the agency as a regulator would not 
address future domestic disposal capacity in the absence of a 
public health and safety or common defense and security 
concern. The NRC's review focuses on whether there is disposal 
space available for the material specified in the particular 
import application. It is conceivable, however, that a 
particular import application could raise questions regarding 
future domestic disposal capacity that the NRC would address in 
its regulatory role. For example, such questions could arise in 
the context of the third criterion for NRC review, whether 
there is an appropriate facility that has agreed to accept the 
waste for management or disposal. For these reasons, in making 
its determination, the NRC obtains the views of the affected 
low-level waste compacts and States and the Executive Branch.
    The pure policy question of whether as a general matter 
foreign waste should be permitted to take up space in U.S. 
disposal facilities would necessarily involve interests that 
are beyond the traditional role of a regulator to consider. 
These may include foreign and interstate commerce, 
entrepreneurial interests, States' concerns and expectations in 
light of their substantial responsibility under the regional 
compact system and Low-Level Radioactive Waste Policy Act. 
However, the NRC would be pleased to share its views on the 
effect of the proposed H.R. 5632 on import and export licensing 
and contribute its technical expertise to those decision makers 
better situated to decide the questions the draft legislation 
involves.
    Mr. Chairman, as you mentioned, the NRC has under 
consideration the EnergySolutions import and export application 
to accept material from Italy for disposal. The public comment 
period and time within which to request a hearing on this 
application are still open. Therefore, as it relates to the 
application, my testimony should be limited to allow for 
unbiased consideration after the comment period closes of all 
views expressed to the NRC on whether to grant or deny the 
application.
    In conclusion, the NRC's role in evaluating low-level waste 
import applications is a regulatory one, limited to ensuring 
that the proposed import can be accomplished safely and 
securely in accordance with all applicable legal requirements.
    Mr. Chairman and members of the subcommittee, this 
concludes my statement. I would now be happy to answer any 
questions that the Subcommittee may have for me.
    [The prepared statement of Ms. Doane follows:]

    [GRAPHIC] [TIFF OMITTED] T4899.001
    
    [GRAPHIC] [TIFF OMITTED] T4899.002
    
    [GRAPHIC] [TIFF OMITTED] T4899.003
    
    [GRAPHIC] [TIFF OMITTED] T4899.004
    
    [GRAPHIC] [TIFF OMITTED] T4899.005
    
    [GRAPHIC] [TIFF OMITTED] T4899.006
    
    [GRAPHIC] [TIFF OMITTED] T4899.007
    
    [GRAPHIC] [TIFF OMITTED] T4899.008
    
    [GRAPHIC] [TIFF OMITTED] T4899.009
    
    [GRAPHIC] [TIFF OMITTED] T4899.010
    
    [GRAPHIC] [TIFF OMITTED] T4899.011
    
    Mr. Boucher. Thank you very much, Ms. Doane.
    Mr. Bradford.

STATEMENT OF KENT J. BRADFORD, CHAIRMAN, UTAH RADIATION CONTROL 
                             BOARD

    Mr. Bradford. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to appear before you today to 
provide testimony concerning actions of the Utah Radiation 
Control Board with respect to the importation of foreign 
radioactive waste.
    The Utah Radiation Control Board is charged with regulating 
radioactive materials and radiation sources in Utah to ensure 
the protection of the general public. The Utah Radiation 
Control Board is established by statute and consists of 13 
members appointed by the Governor of Utah and confirmed by the 
Utah Senate. The members have a broad range of experience 
representing regulated industry, academia, local government, 
medical, and dental professions and the general public. Twelve 
of the 13 members including myself are volunteers. I am the 
current chair of the Utah Radiation Control Board and my 
profession is as an environmental and safety manager and I work 
for a company that is regulated by the Board.
    I would now like to turn to the questions that you asked in 
your May 12th invitation letter. Question 1: What is the role, 
authority, and responsibilities of the Utah Radiation Control 
Board in regulating low-level radioactive waste?
    Utah is an agreement State for low-level radioactive waste 
under the Atomic Energy Act and the Board therefore regulates 
radioactive waste facilities including disposal facilities in 
the place of the Nuclear Regulatory Commission. The Board makes 
rules and enforces rules and statutes that govern radioactive 
waste facilities. Among the Board's duties are two that are 
pertinent to the importation of radioactive waste from foreign 
countries. The Board is charged with regulatory oversight of 
low-level radioactive waste disposal facilities including 
EnergySolutions. It also has statutory authority to promote the 
planning and application of pollution prevention and 
radioactive waste minimization measures to prevent the 
unnecessary waste and depletion of natural resources.
    Question Number 2: Please address any past actions by the 
Board with respect to foreign low-level radioactive waste 
imports to Utah.
    When issues such as this importation question arise that 
are of interest or concern to the citizens of Utah, the Board 
may issue rules or may elect to issue position statements to 
guide the development of State and national policy.
    When the matter of disposal of low-level radioactive waste 
from foreign countries arose, the Board discussed this and 
first considered issuing a rule prohibiting the disposal. 
However, we received legal counsel that suggested that the rule 
could be challenged as a violation of the commerce clause of 
the Constitution and so the Board elected then to issue a 
position statement in the form of a letter to the Chairman of 
the Nuclear Regulatory Commission. A copy of that letter is 
included in my written testimony. The letter expresses the 
Board's opposition to license amendments currently under review 
by the Nuclear Regulatory Commission for importation of foreign 
waste from Italy. In the letter to the Nuclear Regulatory 
Commission, the Board expressed what it heard: the citizens of 
Utah strongly oppose the importation of foreign waste. The 
Board believes that the State of Utah has done its fair share 
and more in providing appropriate disposal capacity for the 
Nation's low-level waste by permitting a low-level facility in 
our State. Providing disposal capacity for foreign waste was 
never discussed or contemplated at the time the State issued a 
license to the predecessor of EnergySolutions.
    The Utah Radiation Control Board has not taken any previous 
action or position with respect to foreign low-level 
radioactive waste imports into Utah.
    Question 3: Please address the Board's views on the 
adequacy of disposal capacity for low-level waste in the United 
States and whether there is a policy reason related to capacity 
to consider limiting importation of foreign waste for disposal 
in Utah.
    As noted in the letter to the Nuclear Regulatory 
Commission, the Board has not taken a position with respect to 
domestic capacity for low-level waste except to note that the 
Nation's capacity is finite and that we must ensure that the 
Nation provides and retains domestic capacity for our own 
radioactive waste. In the letter to the NRC, we also state that 
the U.S. Nuclear Regulatory Commission and the United States 
Congress should work together to adopt a workable low-level 
radioactive waste plan.
    The current system has not been successful in locating low-
level disposal sites within the various State compacts. As a 
result, the large majority of radioactive waste, over 90 
percent, is disposed at EnergySolutions in Utah. The majority 
of that waste has been from Federal generators. Congress should 
evaluate the current system and encourage other States and 
compacts to establish low-level disposal facilities
    Question 4: Please address any position or observations the 
Board may have with respect to H.R. 5632.
    We want to let you know that the Utah Radiation Control 
Board has not taken a position with respect to this 
legislation.
    Thank you for your time and attention to this matter, and I 
would be happy to answer any questions.
    [The prepared statement of Mr. Bradford follows:]

    [GRAPHIC] [TIFF OMITTED] T4899.012
    
    [GRAPHIC] [TIFF OMITTED] T4899.013
    
    [GRAPHIC] [TIFF OMITTED] T4899.014
    
    [GRAPHIC] [TIFF OMITTED] T4899.015
    
    [GRAPHIC] [TIFF OMITTED] T4899.016
    
    [GRAPHIC] [TIFF OMITTED] T4899.017
    
    [GRAPHIC] [TIFF OMITTED] T4899.018
    
    [GRAPHIC] [TIFF OMITTED] T4899.019
    
    [GRAPHIC] [TIFF OMITTED] T4899.020
    
    [GRAPHIC] [TIFF OMITTED] T4899.021
    
    [GRAPHIC] [TIFF OMITTED] T4899.022
    
    [GRAPHIC] [TIFF OMITTED] T4899.023
    
    [GRAPHIC] [TIFF OMITTED] T4899.024
    
    [GRAPHIC] [TIFF OMITTED] T4899.025
    
    Mr. Boucher. Thank you, Mr. Bradford, and I want to thank 
both witnesses for taking time to share their views with us 
this morning.
    Ms. Doane, I have several questions for you clarifying 
various authorities of agreement States and also of compacts, 
and I would like for you to provide a little bit of background 
about our history with this issue. Have we ever received 
imported low-level waste into the United States previously?
    Ms. Doane. Yes, the NRC has granted 13 applications for the 
import of radioactive waste, and I can give you more specific 
information about those 13.
    Mr. Boucher. Let me ask that you submit that to the 
subcommittee as a written submission, if that is not in your 
opening statement.
    Ms. Doane. It is in our opening statement.
    Mr. Boucher. It is in your opening statement?
    Ms. Doane. Yes, and if you would like further details, we 
would be glad to provide that.
    Mr. Boucher. That is helpful. Thank you. Can you describe 
the locations into which that low-level waste imported from 
other countries has been shipped for disposal?
    Ms. Doane. Yes, they are Waste Control Specialists, U.S. 
Ecology, and the EnergySolutions facility in Clive, Utah.
    Mr. Boucher. Have they all gone to Clive or have they gone 
to other places?
    Ms. Doane. It depends on what we are talking about but they 
have gone to all facilities.
    Mr. Boucher. To all facilities?
    Ms. Doane. Yes.
    Mr. Boucher. So the Barnwell, South Carolina, site has 
received foreign waste previously?
    Ms. Doane. No.
    Mr. Boucher. It has not?
    Ms. Doane. The Barnwell site has not, no.
    Mr. Boucher. So the Clive, Utah, site has. How many other 
sites have received waste from other countries?
    Ms. Doane. U.S. Ecology has received waste----
    Mr. Boucher. Now, where is that site situated?
    Ms. Doane. U.S. Ecology--Richland.
    Mr. Boucher. That is Richland, Washington?
    Ms. Doane. Yes.
    Mr. Boucher. Well, just identify, if you would, the sites 
in terms of location within the United States that have 
received waste that has been imported from other countries.
    Ms. Doane. OK. Let me refer to our table so that I am 
specific here.
    Mr. Boucher. All right. You have indicated that the 
Richland, Washington, site has received waste from other 
countries. What other sites?
    Ms. Doane. Waste Control Specialists in Texas has the 
ability to receive waste from foreign countries and then the 
Clive, Utah, site has received waste from other countries. The 
reason why I am hesitating here is that when waste is imported 
into the country, and as you will see from our testimony, it is 
handled in several different ways. There is some waste that is 
imported directly for disposal. But some waste may first be 
processed and then takes on a different attribution. For 
example, waste that is generated in processing may be 
determined to be domestic waste. So while it came from the 
processing of a foreign import, it actually became domestic 
waste when it was disposed of in the facility. I don't know if 
that helps.
    Mr. Boucher. Well, it is helpful.
    Ms. Doane. And we have three sites that can receive this 
kind of waste and we have received applications and granted 
them for disposal in the Clive, Utah, facility.
    Mr. Boucher. Is the Texas site open at the present time?
    Ms. Doane. Yes.
    Mr. Boucher. It is?
    Ms. Doane. The RCRA site is, but I am not sure what kind of 
waste we are discussing.
    Mr. Boucher. Well, the subject is waste imported from other 
countries.
    Ms. Doane. No, no, it is not.
    Mr. Boucher. So the Texas site is not open at the present 
time for waste imported from other countries?
    Ms. Doane. No, not for low-level radioactive waste from 
other countries. That is right.
    Mr. Boucher. Is it open at the present time for other 
disposal purposes for waste from domestic sites?
    Ms. Doane. Yes, for RCRA disposal.
    Mr. Boucher. OK. Do you believe that there are any valid 
concerns about the effect that the importation of waste from 
other countries could have on the capacity of the low-level 
waste sites to accommodate domestically produced low-level 
waste? And the reason I ask that question is that it would seem 
that capacity for general national application is shrinking 
rather than expanding. The Barnwell, South Carolina, site very 
shortly will only be accepting low-level waste from the 
Southeastern Compact, and at the present time the Richland, 
Washington, site accepts waste from its compact and the 
adjoining compact but no other waste.
    Ms. Doane. Right.
    Mr. Boucher. Leaving, as I understand it, for States that 
are in compacts are unaffiliated States that do not have their 
own waste disposal sites, only the Clive, Utah, disposal site 
available. And so it would appear that for those States, there 
will be even less domestic capacity over time rather than more. 
Is that an accurate statement?
    Ms. Doane. That is an accurate statement.
    Mr. Boucher. Are you concerned then about the effect that 
waste imports from other countries might have on the 
availability of disposal capacity for waste generated within 
the United States generally?
    Ms. Doane. Well, the Nuclear Regulatory Commission, as you 
know, has said that with respect to capacity, its focus has 
been on whether we could ensure public health and safety and 
common defense and security so to the extent that we look at 
capacity diminishing, we look at it in terms of whether it can 
be stored safely where it is. And so our focus is on adequate 
storage. So from a public health and safety perspective, we 
believe that in the short term we have sufficient regulations 
in place to ensure the adequate health and safety and we 
continue to look at these imports on a case-by-case basis.
    Mr. Boucher. All right. Just briefly, and my time is 
expired so try to keep this answer relatively short, could you 
describe the authorities exercised by agreement States on the 
one hand and by compacts themselves on the other with regard to 
the permissibility of siting low-level waste disposal sites 
within that individual State for an agreement State or within 
the compact States generally? What is the authority of the 
compact on the one hand and the agreement State on the other 
with regard to the siting of those facilities?
    Ms. Doane. I apologize. I am with the Office of 
International Programs so I can tell you with respect to 
imports how both of those----
    Mr. Boucher. OK. You are not prepared to discuss the 
authorities more generally with regard to that?
    Ms. Doane. I would prefer--I could----
    Mr. Boucher. OK. I understand. It is not in your particular 
discipline. All right. That is fine. Thank you.
    The gentleman from Texas, Mr. Hall, is recognized for 5 
minutes.
    Mr. Hall. Ms. Doane, you stated, I think, in your testimony 
that this bill would amend Chapter 8 of the Atomic Energy Act 
to bar the NRC from issuing license authorizing the importation 
in the United States of certain low-level radioactive waste and 
went on to say with exceptions for government or military use 
or return of certain U.S.-origin material unless the President 
waives the prohibition for a specific license application upon 
a finding that the importation would make ``an important 
national or international goal,'' and that is still your 
feeling, is it not?
    Ms. Doane. Yes, it is.
    Mr. Hall. And you have stated that the NRC, the criteria of 
the NRC bases its decision to grant an import license, and we 
understand that. Let me ask you this question. Do you have any 
concern or is there any concern with your associates, 
colleagues at NRC that Congress ought to have any right to take 
away its current authority to grant or deny an import license? 
Does that give you any concern, heartburn at all? It must give 
you a little.
    Ms. Doane. There would be views on both sides, I would 
assume. I think that on the one hand we would look at the 
impact on export/import licensing of course. We would no longer 
be doing these, so from a resource burden, that would have that 
effect. However, on the other side, we do look at these from a 
public health and safety perspective and have allowed them in 
the past.
    Mr. Hall. Absolutely, and you all look at that yourselves, 
don't you?
    Ms. Doane. Yes.
    Mr. Hall. Mr. Bradford, I think you have already stated 
that Utah Radiation Control Board has not taken a position with 
respect to this bill. That is correct still, is it not?
    Mr. Bradford. Yes, that is correct.
    Mr. Hall. Does the Utah Department of Environmental Quality 
do a good job, in your opinion, regulating the--is that Clive 
facility? Cleve or Clive?
    Mr. Bradford. Clive. Yes, I believe that the Division of 
Radiation Control, which is a part of the Utah Department of 
Environmental Quality, does a good job of overseeing the 
operations of EnergySolutions.
    Mr. Hall. And you don't think the Utah DEQ then would ever 
allow anything disposed at Clive that it thought was a health 
or safety risk, would it?
    Mr. Bradford. No.
    Mr. Hall. All right. And is the EnergySolutions at Clive, 
Utah, facility adequately regulated, in your opinion?
    Mr. Bradford. Yes.
    Mr. Hall. And since Utah DEQ has never expressed concern 
over the disposal of international material at Clive in the 
past and in fact has sent a note to the NRC on EnergySolutions' 
pending import application stating that, and I quote, ``The 
Utah Radiation Control rules do not prohibit the disposal of 
low-level radioactive waste from foreign generators.'' Why all 
the fuss if that is the situation?
    Mr. Bradford. Yes. You are correct in the statement and I 
believe it is contained in the NRC facts sheet as well that 
Utah has no technical arguments against the disposal because it 
would fit into the same type of radiological materials that are 
currently disposed. The question is really a policy question as 
to bringing in waste from a foreign entity. It was not 
envisioned originally when the facility was sited, and because 
the Board has a policy role to hear from the citizens of Utah 
and to incorporate the desires of the citizens into the 
policies of the State, that is why we have taken the position 
we have that we don't believe that this import is a good thing 
for the State of Utah.
    Mr. Hall. And you work for Westinghouse?
    Mr. Bradford. Yes, that is correct, my employment.
    Mr. Hall. You are aware, are you not, that Westinghouse was 
granted a license by the NRC in June of 2007 to import low-
level radioactive waste from Canada and dispose of the residual 
waste at--is that still Clive or Cleve? Clive.
    Mr. Bradford. Yes. Yes, with respect to that, my 
understanding, and I have not been personally involved in that, 
is that that is U.S.-generated waste. It was simply sent to 
Canada for processing and cleaning of some of the material to 
be recycled and then returned so it was not an import so much 
as it was using a facility there to provide a service and then 
returning the material.
    Mr. Hall. I thank both of you, and I yield back any time I 
may have.
    Mr. Boucher. Thank you very much, Mr. Hall.
    The gentleman from Utah, Mr. Matheson, is recognized for 5 
minutes.
    Mr. Matheson. Well, thank you, Mr. Chairman. I thank both 
the witnesses.
    Mr. Bradford, in the Board's March 10th letter to the NRC, 
you stated that you did not find any, and I quote, ``legitimate 
reasons why Italy's radioactive material should cross 
international borders to be disposed of in the United States'' 
and also, and I will quote, ``that any country that has the 
technological capability of producing nuclear power within its 
borders should not seek to dispose of waste outside of them.'' 
Is that the Board's position today?
    Mr. Bradford. Yes, it is.
    Mr. Matheson. When the Northwest Interstate Compact on Low-
Level Waste Management met on May 8 to consider this import 
license, all eight member States voted against the acceptance 
of foreign waste into Utah and the compact. Upon instructions 
from the governor, Utah also voted against it. Is that correct?
    Mr. Bradford. Yes.
    Mr. Matheson. And Mr. Chairman, if I could ask, the 
representative of the Northwest Compact was unable to attend 
the hearing but did send a letter explaining the position that 
the Northwest Compact took, and if I could ask for unanimous 
consent, I would like to have that letter and its attachments 
included for the record.
    Mr. Boucher. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Matheson. I would also like to ask, since I am doing my 
housekeeping, I have a letter from Mr. Gordon to Mr. Klein at 
the NRC and a series of attachments associated with that and I 
would also like that inserted for the record. I ask unanimous 
consent----
    Mr. Boucher. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Matheson. Thank you.
    Mr. Bradford, Utah raised the same policy questions the 
Board raised on its March 10 letter to the NRC that countries 
which generated radioactive waste should take care of their 
radioactive waste. Is that correct?
    Mr. Bradford. Yes.
    Mr. Matheson. In your testimony, you stated that your 
board, the Radiation Control Board in Utah, considered adopting 
a rule with regard to foreign waste. You considered adopting a 
rule to prohibit disposal of foreign low-level waste in Utah, 
and then you said you were advised that it would be a 
constitutional violation. Where did you get that advice?
    Mr. Bradford. From the Utah Attorney General's office.
    Mr. Matheson. Is it a correct statement that as a radiation 
control board, you do not have the ability or regulatory 
authority to deny an application for low-level waste to come to 
your site based on whether it is domestic or whether it is 
imported?
    Mr. Bradford. Yes, that is correct.
    Mr. Matheson. That is helpful. OK.
    Ms. Doane, I appreciate your testimony as well. In the 
brief time I have left, I want to ask a couple of questions. In 
your testimony, you noted that the NRC does not take into 
account storage capacity. You focus on public health, safety, 
common defense and security when evaluating an import license. 
Is that accurate, what I am saying?
    Ms. Doane. Well, we would take into consideration storage 
capacity with respect to that particular import but not the 
national policy question.
    Mr. Matheson. OK. That is helpful. In terms of when you are 
looking at public health, safety, common defense, and security, 
is that how you would evaluate whether it is imported waste or 
whether it is domestic waste? Is that a consideration either 
way?
    Ms. Doane. That is a consideration.
    Mr. Matheson. So the fact that it is imported waste does 
not necessarily create a new level of consideration for you?
    Ms. Doane. No, it would be a new level of consideration if 
by some reason of its foreignness it raised a different kind of 
question.
    Mr. Matheson. But not the fact that it is being imported?
    Ms. Doane. No.
    Mr. Matheson. So it is the NRC's position that from a 
regulatory standpoint, your statutory authority, that you do 
not have the ability to deny an application based solely on the 
fact of whether it is domestic or whether it is imported?
    Ms. Doane. Yes, that is our position.
    Mr. Matheson. You noted that the Commission does not take a 
position on the bill we are discussing today and that, and I 
will quote from your testimony, ``The pure policy question of 
whether as a general matter foreign waste should be permitted 
to take up space in U.S. disposal facilities is best addressed 
by Congress.'' Is that still your position?
    Ms. Doane. Yes. I think we said Congress working with other 
agencies.
    Mr. Matheson. Right.
    Ms. Doane. Yes, that is our position.
    Mr. Matheson. Well, I would just say, I think Mr. Gordon 
and Mr. Whitfield agree, I think that you have helped. I 
appreciate that argument because I think it makes the case that 
this legislation is relevant for us to be considering today.
    One more question because I have about 40 seconds left. 
There seems to be some confusion about what is classified as 
low-level radioactive waste. Is it accurate to say that metals 
intended for recycling or beneficial reuse in sealed sources 
are not classified as low-level waste and a processor doesn't 
need a specific waste import license to bring them in?
    Ms. Doane. With respect to some of the applications for 
reuse, they did need a specific license, but there is some 
material that is used for recycling that is exempted from our 
specific import licensing regulations but it should be clear 
that they are not exempt from our domestic possession license 
criteria. So it would have to be consistent with the possession 
license that a facility would have within the United States. So 
I just want to make that clear, that some things can come in as 
an exemption to our waste import regulations but not our 
domestic regulations.
    Mr. Matheson. Thank you.
    Mr. Chairman, I will yield back.
    Mr. Boucher. Thank you very much, Mr. Matheson.
    The gentleman from Michigan, Mr. Upton, is recognized for 5 
minutes.
    Mr. Upton. Well, thank you, Mr. Chairman. I am sorry that I 
had to step away for a few minutes but I am told that these 
questions have not been asked.
    Mr. Bradford, do you know what percentage of the 
EnergySolutions Utah storage capacity would the Italian waste 
make up?
    Mr. Bradford. I am not sure I can speak to that directly 
but I believe it is a very small percentage.
    Mr. Upton. Ten percent, 5 percent, 20 percent?
    Mr. Bradford. Five percent or less.
    Mr. Upton. It is my--well, has international material been 
disposed of at Clive before this time or not?
    Mr. Bradford. I believe there is testimony to the fact that 
small amounts of foreign waste have been disposed at Clive.
    Mr. Upton. And Ms. Doane, H.R. 5632, does that impact 
Canadian recycling services?
    Ms. Doane. It would depend on how the law would be 
implemented, but as Mr. Matheson was asking me questions about 
the exemptions to our waste prohibitions, it would also depend 
on how the material is classified.
    Mr. Upton. Is that----
    Ms. Doane. Is that the question that you are asking?
    Mr. Upton. Well, I just want to know whether Canadian waste 
had been accepted there.
    Ms. Doane. We have granted an application. We granted an 
application for reuse, and I believe that EnergySolutions has 
stated that it has disposed of some of that material in the 
Clive, Utah, site. That was a specific application which may 
when you implement, if you were to implement this legislation, 
would be prohibited but that it is difficult to say with 
specificity because some things would be exempt from the 
definition of waste and therefore could come into the country.
    Mr. Upton. And has the NRC ever denied a low-level import 
license up to this point?
    Ms. Doane. We have returned applications without action. 
For example, once the NRC heard from South Carolina that they 
would not accept the waste it was clear that there was not an 
appropriate facility for disposal, so it was returned without 
action.
    Mr. Upton. And that was where?
    Ms. Doane. It was coming in from Mexico. It was material 
coming in from Mexico.
    Mr. Upton. OK. Thank you.
    I yield back.
    Mr. Boucher. Thank you, Mr. Upton.
    The gentleman from Louisiana, Mr. Melancon, is recognized 
for 8 minutes.
    Mr. Melancon. Thank you, Mr. Chairman.
    Let me see if I can figure out where this all started, the 
origin of importation. Is that just something that department 
itself established? Was it some agreements with other 
countries, i.e., trade agreement, WTO? How did we get to where 
people are wanting to send low-level nuclear waste to the 
United States for disposal?
    Ms. Doane. This is not something new. This has been going 
on for decades where material has been coming in; however, not 
in this volume. So the need really created the opportunity for 
the United States or, I guess, maybe the disposal activities in 
the United States were solicited from other countries that 
didn't have disposal facilities or for other reasons we were 
better capable of handling certain waste because of our 
technical expertise. So that is where the origin is. So the 
impetus was behind a need to take care of waste, and more 
recently there has been a greater focus on ensuring adequate 
treatment of waste and so I would imagine that is what spurring 
the interest now.
    Mr. Melancon. There was mention of several countries that 
don't have any waste disposal.
    Ms. Doane. That is right.
    Mr. Melancon. Is that because they choose not to, their 
people don't want them to, or they figure it is easier to send 
it to somebody else?
    Ms. Doane. I think you will probably find there are many 
reasons why a country would not have a disposal facility. Some 
of it would be technical expertise within the country to 
adequately open and operate a facility of that type. Some 
countries even with the expertise may not have the physical 
capacity and also the financial aspects of trying to open a 
facility.
    Mr. Melancon. So you are talking about sites. How many 
States allow for low-level waste disposal at this time?
    Ms. Doane. Right now we know that for direct disposal, the 
Clive, Utah, site is available for Class A----
    Mr. Melancon. Is that the only one in the country?
    Ms. Doane. For Class A low-level waste that would come 
directly in for disposal.
    Mr. Melancon. OK. And----
    Ms. Doane. I want to be clear about this.
    Mr. Melancon. How many disposal sites----
    Ms. Doane. There are three disposal sites altogether but 
there is--I am sorry. Let me let you finish.
    Mr. Melancon. There are three sites altogether in Utah or 
all together in the United States?
    Ms. Doane. No. In the United States--we have submitted a 
table into the testimony so I think there is some confusion and 
I apologize. I might be creating that.
    Mr. Melancon. Do you know what that number is?
    Ms. Doane. There are three sites. You will see the Clive, 
Utah site; the U.S. Ecology in Richland, Washington; and Waste 
Control Specialists in Texas.
    Mr. Melancon. OK. So there are three sites that take this 
type of material presently. I can remember a number of years 
back, I went to Makilladora in Tijuana and they were so proud 
that they were bringing in distilled water that they purchased 
in the United States and then after they used it in the 
process, it was wastewater so they were sending it back to us 
to take care of instead of--they were making the money and we 
were taking care of their byproducts. So Louisiana has none to 
your knowledge?
    Ms. Doane. No.
    Mr. Melancon. I just wanted to make sure that we are not on 
the list because a number of years ago there was what 
affectionately known as the poo-poo choo-choo that showed up 
with waste from all over the United States, mostly medical 
waste, and they wanted to dispose of it all in Louisiana. So I 
understand what is going on with the folks in Utah.
    So the people that are looking at disposal, this is a 
commercial business venture that is making the request? Is that 
correct?
    Ms. Doane. Yes.
    Mr. Melancon. OK. And if granted, this license could be 
followed by other requests for other imports from other 
countries?
    Ms. Doane. Yes.
    Mr. Melancon. Ad infinitum?
    Ms. Doane. Yes.
    Mr. Melancon. If someone agrees to take it, it would be. 
You mentioned Mexico as sending in. What type of material is 
that we are getting in from Mexico?
    Ms. Doane. I can tell you offhand that there was laundry 
from their power plant. Laundry that was used by their workers 
was sent in for washing, and sometimes through that process 
there is waste resulting from the processing. So that is an 
example.
    Mr. Melancon. That is interesting. I thought I only had the 
nuclear laundry. My clothes come back all busted up.
    When the NRC established its licensing system for imports, 
it said it did not anticipate frequent or large imports. It 
said the imports might be for research purposes or to bring 
back waste from use of U.S. materials. But that isn't what the 
EnergySolutions is proposing or what the NRC is anticipating, 
is it?
    Ms. Doane. You state correctly what was in the statement of 
consideration. That was an example. But this is different than 
what we were anticipating at that time.
    Mr. Melancon. That is all I have got at this time. I would 
reserve the balance of my time, Mr. Chairman. I yield back.
    Mr. Boucher. Thank you, Mr. Melancon.
    The gentleman from Kentucky, Mr. Whitfield, is recognized 
for 5 minutes.
    Mr. Whitfield. Thank you, Mr. Chairman.
    Ms. Doane, I notice in your testimony that you indicate 
that in 1954, at least my understanding was, that was the first 
law adopted in the United States regulating imported waste. Is 
that correct?
    Ms. Doane. Yes.
    Mr. Whitfield. So prior to that, any waste that came in, it 
was not regulated in any way. Is that correct?
    Ms. Doane. I don't really know about what happened before 
1954 because----
    Mr. Whitfield. OK.
    Ms. Doane [continuing]. There probably wasn't any.
    Mr. Whitfield. OK, but----
    Ms. Doane. It could have been imported through the weapons 
program or something like that but not a civilian program, no.
    Mr. Whitfield. OK. And you mentioned earlier that 
applications to bring in low-level waste from another country, 
that this application is the application for the largest amount 
that has been requested. Is that correct?
    Ms. Doane. Yes, that is correct.
    Mr. Whitfield. And what is the total amount that is being 
requested?
    Ms. Doane. We put in our testimony that approximately 
20,000 tons would come into the United States, but, and let me 
be very precise here, it would be--and you have U.S. Ecology 
where you can ask more specific questions on the second panel--
but one-third of it would be recycled, two-thirds of it would 
then be processed, and of that, I believe 1,600 tons to be 
disposed of in Clive, Utah.
    Mr. Whitfield. Now, in the document that was submitted with 
your testimony, it talks about maximum volume that would be 
authorized for importation and then it says ft3. It says 1 
million there but----
    Ms. Doane. Cubic feet, yes, sir.
    Mr. Whitfield. It actually is 20,000 pounds. Is that 
correct?
    Ms. Doane. No, 20,000 tons.
    Mr. Whitfield. Twenty thousand tons?
    Ms. Doane. That is right, so I think the 1 million refers 
to cubic feet. That is why----
    Mr. Whitfield. So it is 1 million cubic feet. OK.
    Ms. Doane. There are a lot of numbers floating around here.
    Mr. Whitfield. So normally when it comes in, the real 
measurement is in tons?
    Ms. Doane. Yes. When it----
    Mr. Whitfield. OK. And this is the largest amount that has 
ever come in?
    Ms. Doane. Yes, that we know of, yes.
    Mr. Whitfield. Now, I think under the EnergySolutions 
application they want to process this material in Tennessee. Is 
that correct?
    Ms. Doane. Yes, that is correct.
    Mr. Whitfield. Now, you have to look at where it is going 
to be processed before you issue a license as well? That is 
part of your review process?
    Ms. Doane. Yes.
    Mr. Whitfield. OK. And you have indicated that the 
regulatory commission has denied some importation requests. Is 
that correct?
    Ms. Doane. Yes, we have returned them without action, yes.
    Mr. Whitfield. And the last one that you did, what was the 
reason that it was returned without action? Tell me again.
    Ms. Doane. Well, there have been several, and I am not sure 
of the exact dates, which one came first, but I can tell you 
that the one that I was referring to as an example was where 
the State of South Carolina said that it would not allow the 
residual waste to go into its facility and so the NRC returned 
the import application without action.
    Mr. Whitfield. Now, just as a layman, if you were talking 
to a rotary club in some small town, how would you describe the 
difference between high-level nuclear waste and low-level 
nuclear waste?
    Ms. Doane. Well, I think there could be a lot of 
definitions but I think for the layperson, it is most easily 
understood to think about spent fuel from power plants as high-
level waste and just about everything else as low-level, but 
there are lots of distinctions to that, but from a layperson's 
perspective, I think that is the easiest way to understand it.
    Mr. Whitfield. And we are talking only about low-level 
waste here, correct?
    Ms. Doane. We are talking about low-level waste, and of 
that, we are talking about Class A, which is the lowest level 
of low-level waste.
    Mr. Whitfield. Are there three different classes?
    Ms. Doane. Three plus greater than Class C.
    Mr. Whitfield. Now, Mr. Bradford, I read somewhere, or 
maybe it was in Ms. Doane's testimony, that a letter that was 
written by the Northwest Compact alleged that this waste would 
be disposed of in an illegal site or at a place where they did 
not have the legal authority to do it. Is my memory wrong about 
this or----
    Mr. Bradford. I am not familiar with the statement that you 
are referring to.
    Mr. Whitfield. Let me just find this letter here. OK. It 
says on May 8, the Northwest Compact notified the NRC by 
letter, actually on May 15, that should it choose to issue the 
import license, it is doing so with the understanding there is 
no facility within the Northwest Compact region that is 
authorized to legally accept this waste for disposal. So Ms. 
Doane, is that correct?
    Ms. Doane. I am sorry, sir. Could you----
    Mr. Whitfield. On page 8 of your testimony, it says the 
Northwest Compact notified the NRC by letter that should it 
choose to issue the import license, it is doing so with the 
understanding there is no facility within the Northwest Compact 
region that is authorized to legally accept this waste for 
disposal. The Clive, Utah, plant is legally authorized to 
accept it, isn't it, for disposal, or am I missing something?
    Ms. Doane. No. The compact is asserting jurisdiction over 
the Clive, Utah, facility, and in its opinion it is stating 
that before it would allow waste to come in, that the matter 
would have to come before the compact, and since it has not, if 
we were to allow it, we are doing so without----
    Mr. Whitfield. So they are making a legal assertion that it 
cannot be disposed of in this instance without their approval 
as well? Is that correct?
    Ms. Doane. Yes, that is what they are saying.
    Mr. Whitfield. And do you have an opinion on that?
    Ms. Doane. Well, there has been a lawsuit filed by--you are 
probably well aware of this. There has been a lawsuit filed by 
EnergySolutions and that lawsuit asserts that they don't have 
jurisdiction over their facility. So now there is that open 
issue with the courts, and the Department of Justice speaks on 
behalf of the Federal government in district court cases such 
as this so we have been coordinating with the Department of 
Justice on this matter.
    Mr. Whitfield. My time is expired, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Whitfield.
    The gentleman from Washington State, Mr. Inslee, is 
recognized for 5 minutes.
    Mr. Inslee. Thank you. I want to ask a question. I was 
reading a newspaper article about this issue that was talking 
about some NRC comments about potential licensing. It's a 
Seattle PI article dated May 8 and it said a spokesman for the 
U.S. Nuclear Regulatory Commission which is reviewing the 
import license doubts that the unanimous vote of the compact 
will kill the application. ``They could say we would still like 
to bring the material for processing in Tennessee and dispose 
of it in some other way, presumably exporting the rest of it 
back to Italy, NRC spokesman Dave McIntyre said in a phone 
interview.'' From that, are we to take it that the NRC has 
essentially said if the waste in fact was going to Utah 
ultimately, then it would not be licensed for import, but that 
if it was headed for processing in Tennessee and then eventual 
disposition somewhere else, then it may be? Can anybody give me 
any insight on that?
    Ms. Doane. At this point in time, it wouldn't be 
appropriate for us to resolve this one way or another, as I 
have said, because the comment period is still open. Whether we 
are going to grant or deny the license, of course, is still 
open until the end of the comment period and then a 
decisionmaking time period after that. So I am not free to 
discuss that issue, the denial or granting. What the question 
is referring to are different processes that are requested 
under the application. So it is for ultimate disposal but there 
are aspects of the license such as processing that are being 
parsed in the application. However, right now the only 
application that we have before us is to bring the waste in, 
process it and dispose of it in the Clive facility. That is how 
the application reads.
    Mr. Inslee. So I guess the question is, why isn't the 
agency taking the position that would not be allowed? The 
Northwest Compact is authorized by statute. Article IV, section 
2, specifically says that no facility located in any party 
state may accept low-level waste generated outside the region 
comprised of the party States except as provided in Article V. 
Article V specifically says you can't do it with their 
approval. They didn't approve. Why is this an issue?
    Ms. Doane. The case is still open. As part of its process 
the NRC gives an opportunity to request a hearing and also a 
time period for public comment, and we don't make a decision 
until that time would run to give ample opportunity. And in 
this case, we even extended it at the request of the public to 
hold our decision open until a longer period of time. That time 
period is not up until June 10 so we have not made a decision 
one way or another.
    Mr. Inslee. Can you tell us whether you respect the law or 
not? That is kind of a basic question. It shouldn't take a lot 
of public comment. I mean, what is the NRC's position on this 
issue, whether the compacts exist and they have jurisdiction or 
somehow they are some figment of somebody's imagination?
    Ms. Doane. OK. Well, yes, I understand your question. The 
compact has asserted its jurisdiction and we are aware of that, 
and we are aware of every--all the, quote, statements made by 
the compact and their position. It is very clear. We understand 
it. At the same time, EnergySolutions has filed a lawsuit 
questioning their jurisdiction. The NRC is monitoring this.
    Mr. Inslee. Well, monitoring is one thing, but it is a 
Federal agency that should be able to take a position what 
Federal law is, and I don't quite understand the agency's 
reluctance to take a position of whether the interstate compact 
law is a law that is authorized by Congress and deserves to be 
respected or whether it should not be. It seems to me you have 
a few attorneys to make that decision and the agency should 
make a decision and it doesn't take 100 letters or e-mails from 
Tukwila, Washington, to advise you about that. It is on the 
statute. It is on the books. Why can't the agency take a 
position and say that the compact is the law, you got to follow 
it, and we don't allow licenses that violate the compact? Why 
can't you do that without 100,000 comments?
    Ms. Doane. I guess I have to say, it could be one outcome 
but it wouldn't be appropriate for me to resolve this today 
because the comment period hasn't closed yet.
    Mr. Inslee. Well, if someone had a proposal for licensing 
that would import killers from Brazil that would--their import 
license requested they come and commit homicide in the United 
States, would you wait for the public comment period to take a 
position? I don't understand this.
    Ms. Doane. Well, it is well within our authority to take 
immediate action----
    Mr. Inslee. Then why don't you take an immediate position 
that the compact authorized by the Congress is law of the 
United States and ought to be followed? Why can't the agency 
tell us today, we are here to listen to your position? Your 
position as far as I can tell is like hey, whatever.
    Ms. Doane. Well, then I am not getting my position across 
clearly enough so let me try again. Our position is that our 
decision will be made based on common defense and security and 
public health and safety and no material will enter the United 
States unless we can clearly decide that issue. At this time 
there is no material entering the United States nor is there 
any immediacy----
    Mr. Inslee. Well, what you left out of your criteria, you 
mentioned the common defense, you forgot to mention the law, I 
think. Now, is that implicit? Because the law, as I read it, 
says the compact should be followed. Congress gave them the 
authority. They quite clearly, there is no ambiguity about 
this, decided not to allow it pending at least some further 
action. I mean, do I implicitly say you left out the law but 
you do intend to respect it or----
    Ms. Doane. We absolutely intend to respect the law.
    Mr. Inslee. That is progress.
    Ms. Doane. And there is a lawsuit filed right now and very 
able judges will decide this matter, and the NRC will 
absolutely follow the law as it is decided in that matter.
    Mr. Inslee. I will just tell you, speaking as one 
Congressman, I am not satisfied with that. The agency has 
responsibility to follow the law and it has an obligation to 
follow the law the best it understands it and then you're just 
punting to people writing letters to it eventually is not 
satisfactory. Thank you.
    Mr. Boucher. Thank you very much, Mr. Inslee.
    The gentleman from Tennessee, Mr. Gordon, is recognized for 
5 minutes.
    Mr. Gordon. First of all, I want to thank you for being 
here today. I know that you are getting questions from left and 
right and you are doing a good job trying to answer them. Let 
me see if I can summarize some things. You correct me if I am 
wrong somewhere. I am trying to use both your testimony as well 
as some statements that the agency has made. First of all, you 
stated that there have been 13 prior applications for foreign 
radioactive waste but I understand that only four of those 
really have actually been disposed of here. Also that the 
Italian waste, the 20,000 tons, is approximately 25 times 
bigger than the largest one in the past.
    Ms. Doane. I haven't worked out how many times larger it 
is.
    Mr. Gordon. I will just remind you, it is 770,000 pounds, 
and this is 20,000 tons, so it is much larger than anything in 
the past.
    Now, also, correct me if I am wrong, when South Carolina 
this summer stops accepting radioactive waste from outside its 
compact area, then there will be 36 States in the United 
States, 36 States including Louisiana, Virginia, Michigan, 
Texas, Tennessee that will have no other place in the world to 
take their low-level radioactive waste. Is that correct?
    Ms. Doane. At this time. I mean, we know of countries that 
don't have laws that prohibit but whether those facilities 
would take it is, I can't----
    Mr. Gordon. So----
    Ms. Doane. As far as in the United States, that would be 
correct, yes.
    Mr. Gordon. So there is no other place in the world that 
can take it? OK. And, you know, there are implications about 
how is your domestic industry going to be able to continue if 
there is no place to put their low level.
    Now, and here is the other dilemma that we have got into, 
and again, I am going to try to summarize, so if I am 
inaccurate, you let me know. In your testimony, you say that 
whether or not we should accept general foreign waste is really 
a public policy decision that ought to be made by Congress, not 
NRC, and that you have to do your basic safety tests, and it 
really is up to the compacts to decide whether at the end of 
the day they want to take the waste or not. Is that correct? I 
mean, I can be more specific but that is the general concept.
    Ms. Doane. That is the general concept but the national 
policy decision could be decided by many factors. The compacts 
have responsibility for determining whether or not they are 
going to take waste outside the compact.
    Mr. Gordon. Yes, but where we are now when it comes to 
foreign waste coming in, you don't make a policy decision about 
that?
    Ms. Doane. That is right.
    Mr. Gordon. But you say, and again, I can read it to you 
here. You say the NRC, however, recognizes the legal authority 
of the relevant host State and low-level radioactive waste 
compact to accept or reject low-level radioactive waste for 
disposal or management in the compact region. Is that correct?
    Ms. Doane. That is correct.
    Mr. Gordon. OK. So once again, concerning foreign waste, 
you are saying NRC, they can't say anything about whether it 
should come in or not, it is only on that safety issue, and 
that it is up then to the local compact to decide?
    Ms. Doane. With regard to the health and safety decision, 
States that license the facilities can make a determination.
    Mr. Gordon. I am talking about foreign waste coming in.
    Ms. Doane. Yes.
    Mr. Gordon. So you are saying----
    Ms. Doane. Even with the--because it is an Agreement State, 
the State of Utah could make a decision about whether the 
facility is appropriate for disposal, even though it is foreign 
waste, they don't abdicate their responsibility.
    Mr. Gordon. Exactly. What I am saying is, you are saying 
you can't make a judgment about the foreign waste.
    Ms. Doane. That is right.
    Mr. Gordon. OK. But that the local compacts can, and that 
is where it has to be determined?
    Ms. Doane. What we say is--I want to be very precise here 
because----
    Mr. Gordon. OK, let us be precise.
    Ms. Doane [continuing]. There is a lawsuit. So what we are 
saying is that we absolutely consult with the compacts and we 
have a very open public process. We actually issued letters to 
the States in the compacts so that all of these views can come 
into the agency, and in this case, there is a controversy----
    Mr. Gordon. I don't want to talk about this case. I am 
talking about the general. Now, please let me, just tell me----
    Ms. Doane. I am sorry.
    Mr. Gordon. I am going to say it and then you explain how I 
am not right----
    Ms. Doane. OK. I am sorry.
    Mr. Gordon [continuing]. If that is the case. NRC once 
again when it comes to foreign waste coming in, you only look 
at the safety issue of it, you don't look at the public policy 
of whether we should accept foreign waste and what impact it 
will have on storage. OK. Then so it is up to the local 
compacts, really just those three, to determine whether or not 
they are going to take that waste. All right. So that is the 
only safety valve that we have, stopping the foreign waste 
coming in, is whether you say for whatever reason it wouldn't 
be safe and the local compacts, yet EnergySolutions is suing--
the local compact said we don't want it, don't bring it in, and 
now they are being sued. So, where are we?
    Ms. Doane. So you want me to tell you how that is right, 
right?
    Mr. Gordon. No, just tell me if that is wrong.
    Ms. Doane. I think it is a very complicated area and I 
think you have recognized where the frustrations are on our 
part, not frustration but----
    Mr. Gordon. Let me move on. We are really--it is pretty 
simple. You are saying it is up to the States. The States are 
saying we don't want it and EnergySolutions is then saying we 
are suing the States because we don't think you have the 
authority. In other words, nobody has that authority.
    So let us go, and Mr. Bradford, in a very masterpiece of 
American literature here, you state very clearly concerning 
radioactive waste that any country that has the technological 
capability of producing nuclear power within its borders should 
not seek to dispose of its waste outside of them.
    Mr. Bradford. Yes, that is the position of the Board.
    Mr. Gordon. And the Board has voted not to accept it?
    Mr. Bradford. Yes.
    Mr. Gordon. And now you are being sued by the 
EnergySolutions saying you have got to take it, it is our 
property, we are going to do with it what we want.
    Mr. Bradford. Well, I believe the lawsuit is against the 
compact.
    Mr. Gordon. The compact, yes.
    Mr. Bradford. The Utah----
    Mr. Gordon. So again, here is where we are. NRC can't do 
anything. Those folks that can do something now are being sued 
to stop them from doing anything, and I yield back the balance 
of my time.
    Mr. Boucher. Thank you very much, Mr. Gordon.
    That concludes the--oh, Mr. Shimkus. The gentleman from 
Illinois is recognized for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. I don't think I will 
take that long. I want to appreciate the thoughtfulness of Mr. 
Whitfield, Mr. Matheson, and Mr. Gordon. They are all sincere 
public policy guys that get in the weeds and try to address 
concerns, so my hat is off.
    Mr. Bradford, does Utah have any nuclear power plants?
    Mr. Bradford. No.
    Mr. Shimkus. And you are in the Northwest Compact, right?
    Mr. Bradford. Yes.
    Mr. Shimkus. The ruling--I think that my concern, the 
interstate commerce clause is kind of a sacrosanct issue of 
this committee and this new constitution that we have had that 
lasted about 219 years. I tell students that the interstate 
commerce clause has really helped two States from going to war 
and established the principle that is further jurisdiction. Is 
there a concern--your comment, which is somewhat troubling, and 
I understand this is from Italy but countries that generate 
low-level nuclear waste should manage their own waste is kind 
of--I am paraphrasing. I just scribbled that down. Is that the 
same thing for States?
    Mr. Bradford. Well, it is certainly not the case today.
    Mr. Shimkus. Should it be?
    Mr. Bradford. Well, the Board hasn't taken a position on 
that except to say that we do say in our letter that we 
encourage the NRC and Congress to look at our current system 
because the current system today sends a vast majority to the 
State of Utah and we would like to see others bear some of the 
burden.
    Mr. Shimkus. So you are hinting that it probably wouldn't 
be bad policy for States that generate would be States that 
dispose?
    Mr. Bradford. Yes.
    Mr. Shimkus. I think that is where you are going to have 
problems because we fought this battle here numerous times on 
just regular waste, and you have--I am from downstate Illinois, 
30 rural counties. People don't like Chicago waste. People 
don't like St. Louis waste. There is an interstate commerce 
clause. I know this is low-level nuclear waste but it is the 
interstate commerce clause that is of concern and that is why I 
throw it out.
    Mr. Matheson. Would you yield just a second, Mr. Shimkus?
    Mr. Shimkus. Yes, I would be happy to.
    Mr. Matheson. And I am sure, Mr. Gordon and Mr. Whitfield 
agree with me, we in no way are trying to raise questions about 
limiting it to a State. I just want to make you clear as to the 
authors of the bill, that we are not trying to question the 
interstate commerce clause at all. This strictly has to do with 
imports from overseas. It wouldn't----
    Mr. Shimkus. But it probably segues into----
    Mr. Matheson. I just wanted to share that with you.
    Mr. Shimkus. Yes, no, and I am not--I am just thinking this 
through after listening to the hearing, and it is addressing 
the compact and the compact does allow you to cross over State 
lines. I am not trying to cause trouble. I am just----
    Mr. Gordon. Mr. Shimkus, I think you have really hit upon 
the real threshold issue here, once again, on the interstate 
commerce issue. Once again, the NRC is saying they really don't 
have the authority to regulate foreign waste coming in, it 
should be done by the local authorities. The local authorities 
now are saying they don't want it, but EnergySolutions is suing 
them saying by virtue of interstate commerce, you have to take 
it. And so you are making the argument that their case is right 
and it may very well succeed, and that is why there needs to be 
a national law to stop foreign waste coming into this country 
and taking up finite capacity because in all likelihood 
EnergySolutions might very well win their lawsuit on interstate 
commerce issue. There is no other way to deal with this.
    I yield back.
    Mr. Shimkus. I do appreciate it. I will just tell you, 
Illinois, not in my area, but it is a big nuclear power State. 
We have great research facilities. Our low-level nuclear waste 
is going somewhere. I bet a lot of it is going to Clive. It is 
OK, but I think there is a concern that we ought to--maybe the 
legislation is clear and precise but you know how it is here, 
the camel's nose under the tent. I know communities that would 
like to prohibit anything coming in to their community and I 
have heard the arguments that, if you generate it, you should 
be able to store it, and I would just raise that as a concern, 
and with that, my time is expired, Mr. Chairman. Thank you.
    Mr. Boucher. Thank you very much, Mr. Shimkus.
    There are no further questions for this panel of witnesses, 
and with the subcommittee's thanks, we will excuse you at this 
time.
    We now turn to our second panel of witnesses: Mr. Steve 
Creamer, the chairman and chief executive officer of 
EnergySolutions and Mr. Gene Aloise, the Director of Natural 
Resources and Environment for the United States Government 
Accountability Office. Mr. Aloise is being joined at the 
witness table by Mr. Feehan, who is the Assistant Director for 
Natural Resources and the Environment at the Government 
Accountability Office.
    Without objection, the prepared written statements of the 
witnesses will be made a part of the record. We would welcome 
your oral summary and ask that that be kept to approximately 5 
minutes.
    Mr. Creamer, we will be happy to hear from you.

  STATEMENT OF R. STEVE CREAMER, CHAIRMAN AND CHIEF EXECUTIVE 
                    OFFICER, ENERGYSOLUTIONS

    Mr. Creamer. Thank you, Mr. Chairman, members of the 
subcommittee. I am Steve Creamer, chairman and chief executive 
officer of EnergySolutions. It is an honor for me to appear 
before you today.
    I was going to acknowledge Congressman Matheson, who is my 
Congressman, and I appreciate him very much. He does a great 
job.
    EnergySolutions, headquartered in Salt Lake City, Utah, is 
a nuclear services company with operations throughout the 
United States and around the world. EnergySolutions is 
committed to helping the United States achieve energy 
independence, reduce carbon emissions, and protect the 
environment. We are the world leader in the safe recycling, 
processing, transportation and disposal of nuclear materials. 
EnergySolutions believes in safety first: safety for our 
workers, safety for our environment, and safety for the 
communities in which we operate.
    We own and operate several state-of-the-art facilities. In 
Oak Ridge, Tennessee, we have the Bear Creek facility that has 
one of two metal melt facilities in the world. This facility 
has recycled metals, both domestic and international, for over 
12 years. The Bear Creek facility has recycled over 56,000 tons 
of metal. Of this amount, over 1,000 tons has come from 
international sources. The recycled metals are used to produce 
shield blocks for the reuse at nuclear and accelerator 
facilities throughout the world. Shield blocks made at our Bear 
Creek facility protect the neutron source at DOE's Oak Ridge 
National Laboratory in Tennessee. Many of the metals in these 
shield blocks came from international metals that were recycled 
in Tennessee. Low-level radioactive material from nearly all 
104 domestic nuclear power plants is sent to Bear Creek for 
processing with residual Class A waste disposed of at our 
Clive, Utah, facility. We also process material at Bear Creek 
from the Departments of Energy and Defense, the Tennessee 
Valley Authority, doctors, hospitals and research facilities.
    Our Clive facility has been in operation since 1988. It is 
a privately owned Class A low-level radioactive waste disposal 
site that has received waste from international generators for 
over 8 years. The Clive facility, which has over 30 years of 
capacity, has enough capacity to take all of the Class A waste 
from the 104 domestic nuclear power plants and still have 
approximately 50 million cubic feet of remaining capacity. 
According to the GAO, disposal of--and this is quoted out of 
their 2004 report--disposal availability of Class A waste is 
not a problem in the short or longer term. EnergySolutions is 
the leading U.S. company with experience and technology to 
recycle spent nuclear fuel. We are exploring opportunities to 
site low-level waste disposal facilities abroad to help those 
countries address their waste management issues.
    In order to meet the growing energy demand in the United 
States and around the world, a variety of energy sources must 
be utilized including solar, wind, biofuels, and nuclear. 
Nuclear is a clean, safe, reliable, non-carbon emitting energy 
source. I would like to address the quote from Mr. Gordon's 
remarks from the SEC document. EnergySolutions is pursuing 
opportunities overseas. Most of these opportunities are for 
work overseas. Over two-thirds of our revenue today comes from 
the United Kingdom from work that is done in the United 
Kingdom, not bringing waste back to the U.S. We try to do that 
around the world. The United States needs companies like 
EnergySolutions to safely and responsibly manage the recycling, 
processing and disposal of nuclear materials. We should stand 
ready to provide technical solutions to those countries that 
are in need. This does not mean that EnergySolutions or any 
other U.S. company should be responsible for disposing of the 
world's nuclear waste.
    EnergySolutions is committed to maintaining Clive's 
capacity for domestic customers. This is why we offered to 
self-impose a limit of disposal of international material to 5 
percent of our remaining capacity at Clive. We will not under 
any circumstance use Clive in a manner that would adversely 
affect our U.S. customers either now or in the future. You have 
my commitment on that.
    Our pending application with the NRC to import low-level 
nuclear material from Italy, process it at our Bear Creek 
facility in Tennessee, and dispose of a small amount of the 
residual Class A material at our Clive facility in Utah is 
consistent with all laws and regulations, consistent with past 
practices, consistent within limited situations utilizing our 
world-class facilities to solve these challenges.
    The Italian material--metals, paper, plastic, clothing--is 
exactly the same type of material we handle every day from the 
domestic nuclear industry at our U.S. facilities. Before any 
material would leave Italy, EnergySolutions personnel would 
subject it to extensive characterization to ensure that the 
imported material meets the processing and disposition 
requirements of the Bear Creek and Clive facilities. The 
residual waste from processing at Bear Creek would be Class A 
waste and would be disposed of at Clive. Approximately one-
third of the Italian material is metal that would be recycled 
and formed into shield blocks. The remaining material would be 
incinerated or volume reduced. Only about 8 percent of the 
material would be disposed of at Clive. This is way, way less 
than 1 percent of what we take at Clive each year--way, way, 
less than 1 percent. No material would be disposed of in 
Tennessee. No material would be orphaned in the United States. 
No spent fuel would be imported into the United States. Ninety-
nine point nine nine eight percent of the radioactivity would 
remain overseas.
    Mr. Chairman, I have spent my entire career cleaning up the 
environment, everything from the Oak Ridge National Laboratory 
in Tennessee to the mill tailings in Moab, Utah, to the 
enrichment facility in Paducah, Kentucky. EnergySolutions is 
committed to continuing to clean up the nuclear legacy of the 
past and help the United States achieve energy independence by 
ensuring a bright future for nuclear power. I am happy to 
answer your questions.
    [The prepared statement of Mr. Creamer follows:]

    [GRAPHIC] [TIFF OMITTED] T4899.047
    
    [GRAPHIC] [TIFF OMITTED] T4899.048
    
    [GRAPHIC] [TIFF OMITTED] T4899.049
    
    [GRAPHIC] [TIFF OMITTED] T4899.050
    
    [GRAPHIC] [TIFF OMITTED] T4899.051
    
    [GRAPHIC] [TIFF OMITTED] T4899.052
    
    [GRAPHIC] [TIFF OMITTED] T4899.053
    
    [GRAPHIC] [TIFF OMITTED] T4899.054
    
    [GRAPHIC] [TIFF OMITTED] T4899.055
    
    [GRAPHIC] [TIFF OMITTED] T4899.056
    
    [GRAPHIC] [TIFF OMITTED] T4899.057
    
    [GRAPHIC] [TIFF OMITTED] T4899.058
    
    [GRAPHIC] [TIFF OMITTED] T4899.059
    
    [GRAPHIC] [TIFF OMITTED] T4899.060
    
    [GRAPHIC] [TIFF OMITTED] T4899.061
    
    [GRAPHIC] [TIFF OMITTED] T4899.062
    
    [GRAPHIC] [TIFF OMITTED] T4899.063
    
    [GRAPHIC] [TIFF OMITTED] T4899.064
    
    [GRAPHIC] [TIFF OMITTED] T4899.065
    
    [GRAPHIC] [TIFF OMITTED] T4899.066
    
    [GRAPHIC] [TIFF OMITTED] T4899.067
    
    [GRAPHIC] [TIFF OMITTED] T4899.068
    
    [GRAPHIC] [TIFF OMITTED] T4899.069
    
    [GRAPHIC] [TIFF OMITTED] T4899.070
    
    [GRAPHIC] [TIFF OMITTED] T4899.071
    
    [GRAPHIC] [TIFF OMITTED] T4899.072
    
    [GRAPHIC] [TIFF OMITTED] T4899.073
    
    [GRAPHIC] [TIFF OMITTED] T4899.074
    
    [GRAPHIC] [TIFF OMITTED] T4899.075
    
    [GRAPHIC] [TIFF OMITTED] T4899.076
    
    [GRAPHIC] [TIFF OMITTED] T4899.077
    
    [GRAPHIC] [TIFF OMITTED] T4899.078
    
    [GRAPHIC] [TIFF OMITTED] T4899.079
    
    [GRAPHIC] [TIFF OMITTED] T4899.080
    
    [GRAPHIC] [TIFF OMITTED] T4899.081
    
    [GRAPHIC] [TIFF OMITTED] T4899.082
    
    [GRAPHIC] [TIFF OMITTED] T4899.083
    
    [GRAPHIC] [TIFF OMITTED] T4899.084
    
    [GRAPHIC] [TIFF OMITTED] T4899.085
    
    [GRAPHIC] [TIFF OMITTED] T4899.086
    
    [GRAPHIC] [TIFF OMITTED] T4899.087
    
    [GRAPHIC] [TIFF OMITTED] T4899.088
    
    [GRAPHIC] [TIFF OMITTED] T4899.089
    
    [GRAPHIC] [TIFF OMITTED] T4899.090
    
    [GRAPHIC] [TIFF OMITTED] T4899.091
    
    [GRAPHIC] [TIFF OMITTED] T4899.092
    
    [GRAPHIC] [TIFF OMITTED] T4899.093
    
    [GRAPHIC] [TIFF OMITTED] T4899.094
    
    [GRAPHIC] [TIFF OMITTED] T4899.095
    
    [GRAPHIC] [TIFF OMITTED] T4899.096
    
    [GRAPHIC] [TIFF OMITTED] T4899.097
    
    [GRAPHIC] [TIFF OMITTED] T4899.098
    
    [GRAPHIC] [TIFF OMITTED] T4899.099
    
    [GRAPHIC] [TIFF OMITTED] T4899.100
    
    [GRAPHIC] [TIFF OMITTED] T4899.101
    
    [GRAPHIC] [TIFF OMITTED] T4899.102
    
    [GRAPHIC] [TIFF OMITTED] T4899.103
    
    [GRAPHIC] [TIFF OMITTED] T4899.104
    
    [GRAPHIC] [TIFF OMITTED] T4899.105
    
    [GRAPHIC] [TIFF OMITTED] T4899.106
    
    [GRAPHIC] [TIFF OMITTED] T4899.107
    
    [GRAPHIC] [TIFF OMITTED] T4899.108
    
    [GRAPHIC] [TIFF OMITTED] T4899.109
    
    [GRAPHIC] [TIFF OMITTED] T4899.110
    
    [GRAPHIC] [TIFF OMITTED] T4899.111
    
    [GRAPHIC] [TIFF OMITTED] T4899.112
    
    [GRAPHIC] [TIFF OMITTED] T4899.113
    
    [GRAPHIC] [TIFF OMITTED] T4899.114
    
    [GRAPHIC] [TIFF OMITTED] T4899.115
    
    [GRAPHIC] [TIFF OMITTED] T4899.116
    
    [GRAPHIC] [TIFF OMITTED] T4899.117
    
    [GRAPHIC] [TIFF OMITTED] T4899.118
    
    [GRAPHIC] [TIFF OMITTED] T4899.119
    
    Mr. Boucher. Thank you very much, Mr. Creamer.
    Mr. Aloise.

   STATEMENT OF GENE ALOISE, DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, I am pleased 
to be here today to discuss our work on the management of low-
level radioactive waste, a byproduct of nuclear power 
generation, industrial, medical, and other uses of 
radioisotopes. Low-level radioactive waste ranges from rags, 
paper, and clothing that have been exposed to radioactivity to 
building debris and contaminated soil. Management of this waste 
continues to be a concern despite the enactment of the Low-
Level Radioactive Waste Policy Act almost 30 years ago. My 
remarks today are based on two of our issued reports including 
a June 2004 report that examined disposal availability in the 
United States for three of the four classes of low-level 
radioactive waste, Class A, B, and C waste, and a March 2007 
report that examined approaches used by foreign countries to 
manage their low-level radioactive waste.
    In June 2004, we noted that disposal capacity for low-level 
radioactive waste was generally adequate in the short term, but 
that pending constraints on Class B and C waste were 
problematic. As discussed earlier, Barnwell will prohibit waste 
generators in 36 States from accessing its facility by the end 
of June of this year. Barnwell currently accepts 99 percent of 
the Nation's Class B and C waste. If there are no new disposal 
options for this waste, users can continue to minimize waste 
generation, process waste in safer forms and store waste on 
site. We also reported that the Clive, Utah, disposal facility, 
which accepts 99 percent of the Nation's less hazardous Class A 
waste, could take this waste for 20 years. In updating our work 
for this hearing, we found that a two-thirds drop in disposal 
volume since 2005 as a result of the completion of several 
large DOE cleanup projects may extend the capacity for an 
additional 13 years, for a total remaining capacity of 33 
years. Mr. Chairman, I want to point out that this additional 
capacity figure is based on discussions and documentation we 
obtained from a DOE official and the disposal operator and is 
based on relatively low disposal rates for a number of years.
    Importantly, our analysis of disposal availability for 
Class A, B, and C waste was based on the generation of such 
waste only in the United States. We did not consider the impact 
on domestic capacity of importing foreign countries' low-level 
radioactive waste. Regarding other countries' management of 
low-level radioactive waste, 10 of the 18 countries we surveyed 
have disposal options for Class A, B and most of the C waste 
and six other countries have plans to build such facilities. 
Only Italy reported that it had no disposal or central storage 
facilities for low-level radioactive waste. However, Italy is 
one of the countries that indicated to us that it was planning 
to develop a disposal site for this waste, primarily for the 
decommissioning of its four nuclear plants and other nuclear 
facilities. The site was expected to be operational in 2010 but 
resistance to its location from local governments in Italy has 
delayed its opening.
    Our March 2007 report also identified a number of 
approaches used to manage low-level radioactive waste in other 
countries that provide lessons to improve the management of 
U.S. radioactive waste. However, NRC and DOE have considered 
these approaches and are satisfied with the current management 
of low-level radioactive waste.
    Mr. Chairman, that concludes my remarks. We would be happy 
to respond to any questions you or members of the subcommittee 
may have.
    [The prepared statement of Mr. Aloise follows:]

    [GRAPHIC] [TIFF OMITTED] T4899.120
    
    [GRAPHIC] [TIFF OMITTED] T4899.121
    
    [GRAPHIC] [TIFF OMITTED] T4899.122
    
    [GRAPHIC] [TIFF OMITTED] T4899.123
    
    [GRAPHIC] [TIFF OMITTED] T4899.124
    
    [GRAPHIC] [TIFF OMITTED] T4899.125
    
    [GRAPHIC] [TIFF OMITTED] T4899.126
    
    [GRAPHIC] [TIFF OMITTED] T4899.127
    
    [GRAPHIC] [TIFF OMITTED] T4899.128
    
    [GRAPHIC] [TIFF OMITTED] T4899.129
    
    [GRAPHIC] [TIFF OMITTED] T4899.130
    
    [GRAPHIC] [TIFF OMITTED] T4899.131
    
    [GRAPHIC] [TIFF OMITTED] T4899.132
    
    [GRAPHIC] [TIFF OMITTED] T4899.133
    
    [GRAPHIC] [TIFF OMITTED] T4899.134
    
    [GRAPHIC] [TIFF OMITTED] T4899.135
    
    Mr. Boucher. Thank you very much, Mr. Aloise, Mr. Creamer.
    Mr. Creamer, I have several questions of you. Has your 
company imported low-level waste from abroad previously, and if 
so, could you identify the disposal sites into which that waste 
has been placed here in the United States?
    Mr. Creamer. Yes, we have. We have taken waste into Clive 
from Taiwan, the U.K., Germany, France, Canada, Mexico. We have 
taken those wastes in. Some of the wastes have come and gone 
through Bear Creek and have been incinerated or metal melted 
and so what we take is the residuals off of those. It is 
basically under the NRC and the State of Tennessee rules that 
once the shape, the whole form of the material has been 
changed, it is actually Tennessee waste rather than foreign 
waste, but we have taken materials from all of those countries 
into Clive.
    Mr. Boucher. And all of that has gone eventually to Clive?
    Mr. Creamer. All that has gone eventually to Clive.
    Mr. Boucher. Do you have current plans to file other 
applications for the importation of waste?
    Mr. Creamer. You know, we would in the future for certain 
types of situations. We firmly believe that what we are doing 
is trying to enhance an American company's position in the 
world.
    Mr. Boucher. But can you identify the countries from which 
you currently have plans to import waste?
    Mr. Creamer. We have none from any existing ones other than 
Italy right now. I mean, over the past 3 years since I've been 
the CEO of EnergySolutions, we have had requests from several 
countries to bring their waste to the United States and we have 
not even considered them because we did not see any reason to 
do that thing. With Italy, we felt like that there was a 
significant role that we could play in helping Italy and 
furthering an American company's position in the world and so 
we agreed to----
    Mr. Boucher. So to paraphrase that answer, you probably 
will file applications for the importation of waste from other 
countries but you are not prepared to identify them today?
    Mr. Creamer. That is correct. We have no plans today from 
anyone.
    Mr. Boucher. Let me ask the question in a slightly 
different way. Can you make an estimate today of the total 
amount of waste that it is your intention to import from 
overseas?
    Mr. Creamer. Well, as we have said, that we absolutely 
under no circumstance would go above 5 percent of the remaining 
capacity at the Clive facility.
    Mr. Boucher. That would be the upper limit?
    Mr. Creamer. That would be the very upper limit, and 
realistically, I don't think we would ever reach that limit.
    Mr. Boucher. That is a commitment which I understand you 
have made on behalf of EnergySolutions. Would you be willing to 
reduce that commitment into a legally binding obligation?
    Mr. Creamer. Absolutely. We would be more than happy to add 
that to our license with the State of Utah to voluntarily ask 
the State of Utah to add that to our license.
    Mr. Boucher. Mr. Aloise, let me simply ask one question of 
you. You have made an estimate that there is 33 years of 
additional capacity at the low-level disposal sites in the 
United States, and as I understand it, that estimate of 
capacity did not include the importation of waste from 
overseas. Is that correct?
    Mr. Aloise. That is correct.
    Mr. Boucher. If you include the importation of waste from 
overseas as you currently estimate that volume of imports to 
be, how many years of capacity would we have to dispose of low-
level waste at our domestic sites?
    Mr. Aloise. Mr. Chairman, we don't have that information. 
We didn't look at the volumes overseas.
    Mr. Boucher. That concludes my questions, and at this time 
I recognize the gentleman from Michigan, Mr. Upton, for 5 
minutes.
    Mr. Upton. Thank you, Mr. Chairman.
    Mr. Aloise, just to expand on the chairman's question, did 
you focus also on the level of A, B, and C waste in terms of 
the capacity remaining or was it collectively just one number?
    Mr. Aloise. What we were talking about is the Clive 
facility Class A waste.
    Mr. Upton. Mr. Creamer, how many years do you think you 
have remaining at this site? I have been to Utah a good number 
of times. It is a great State. I don't think I have been in 
that area. I have stayed on the slopes versus to the west. It 
is to the west, right, of Salt Lake City?
    Mr. Creamer. That is correct.
    Mr. Upton. How many years do you think you have at this----
    Mr. Creamer. We have over 30 years of capacity. We would 
agree with the GAO report, and that is existing permitted 
capacity. That is not--I mean, just by simply going up to the 
height that geologically it could handle there, you could 
double the capacity if you wanted to, but we are not--I mean, 
we have an agreement with our governor and so the existing 
capacity is what we have there today to work with, and so we 
believe we have that same capacity.
    Mr. Upton. So what happens to your company in 30 years?
    Mr. Creamer. We are the Number 1 leading company in the 
world to reduce the amount of waste. For example, the B and C 
waste going to Barnwell, so you get an example, Clive last year 
and continuing will take 5 to 6 million cubic feet of waste a 
year. The B and C waste generated in America today is between 
10,000 and 12,000 cubic feet. So the difference between 6 
million cubic feet of A waste, 10,000 of B and C waste. About 
half of the B and C waste is water treatment plant resins in 
power plants. You can keep them from becoming B and C waste by 
simply changing the amount more often and so you don't create B 
and C waste and so it stays as Class A waste. So we are working 
with utilities to do that but also in everything that they do. 
We work with them on a daily basis and we are the leading 
driver down of the amount of waste that is generated, and that 
is part of our business. We have a very strong technology 
business, not just a waste business.
    Mr. Upton. And how did the discussions start with the 
Italians? Did they approach you? Did you approach them? How did 
this all come about, and how long has it been in the offing?
    Mr. Creamer. Well, Number 1, I should mention, we do not 
have a contract with Italy at this time. I mean, we don't have 
a contract with them for disposal of waste. We do at this time 
have a contract where we are cleaning a fuel pool in Italy. 
They approached us about a year ago when we started working in 
the U.K. actually operating and decommissioning plants. We 
operate four reactors that are generating power, 18 reactors 
that we are decommissioning that are identical to one of the 
three reactors that they have in Italy that they need some help 
with. One of the other ones is exactly like the Big Rock Point 
reactor that is in your State.
    Mr. Upton. Which is Michigan.
    Mr. Creamer. It is in Michigan.
    Mr. Upton. Not my district but it is----
    Mr. Creamer. It is in Michigan and it is the twin sister to 
that plant that EnergySolutions also decommissioned up in 
Michigan.
    Mr. Upton. Now, you take waste from literally all 104 
different operating plants in the United States?
    Mr. Creamer. A hundred and three. There is one that is 
located in the Northwest Compact but we have taken New Jersey, 
South Carolina, and Connecticut. All are in the Southeast 
Compact but we have taken waste, we continue to take waste from 
all of those.
    Mr. Upton. Are the contracts, are they done every 2 years, 
5 years? I mean--
    Mr. Creamer. We offered every power----
    Mr. Upton. For example, I have two plants, Palisades and 
Cook, so I don't know if you know offhand what the relationship 
is----
    Mr. Creamer. They are both under life-of-plant agreements. 
Well, no, Cook is not. Cook with AP is not under life-of-plant 
agreement. When I took over the industry, I felt the most 
important thing for the nuclear industry in this country was to 
bring stability, not just stability in high-level waste that 
was mentioned but also stability in low-level waste. So we 
offered every power plant in the Nation a life-of-plant 
agreement where we would reserve capacity at Clive for them for 
not only their ongoing waste through the life of the plant but 
also their decommissioning waste.
    Mr. Upton. So when they are relicensed, both Cook and 
Palisades were given additional years so you had space and you 
were----
    Mr. Creamer. We have space and----
    Mr. Upton. It was an addendum that you added to the 
contract and you have got space for them?
    Mr. Creamer. That is correct.
    Mr. Upton. Thank you, Mr. Chairman. I yield back.
    Mr. Boucher. Thank you, Mr. Upton.
    The gentleman from Utah, Mr. Matheson, is recognized for 5 
minutes.
    Mr. Matheson. Thank you, Mr. Chairman.
    Mr. Aloise, in your testimony we talked about this 
estimated capacity, and at one point it was 19 years, now we 
moved it up to 32, 33 years. That is sort of the range we are 
talking about. As you confirmed in answers to a couple of 
questions, your analysis did not assume imports of foreign 
waste. Did your analysis, as I understand it, was based on--the 
updated number was based on volumes for 2007?
    Mr. Aloise. Around those, yes.
    Mr. Matheson. You are aware 2007 was a lower year because 
of----
    Mr. Aloise. Yes.
    Mr. Matheson. OK. Do you think that that was an aberration? 
Did you take into consideration potential increases in the 
future compared to 2007?
    Mr. Aloise. That estimate--and again, we got that 
information from the disposal operator and DOE--was 
approximately 4.5 million cubic feet times 33 years equals----
    Mr. Matheson. So your analysis didn't include any expansion 
of waste from any future DOE cleanups or any increase in 
decommissioning waste from the United States or the fact we 
have got, I think it was mentioned in somebody else's opening 
statement, 32 applications for new nuclear power plants in this 
country pending before the NRC. Now, you didn't project growth 
of waste from those new plants?
    Mr. Aloise. That is correct.
    Mr. Matheson. OK. In the context of making radioactive 
waste policy over time, is there an assumption that 33 years is 
a long time, or did you not make that--I assume GAO doesn't 
necessarily make that judgment.
    Mr. Aloise. No, we didn't make that judgment, and we are 
aware, it is our understanding that there will be large volumes 
from DOE eventually being made available for disposal but we 
don't know where that will be disposed.
    Mr. Matheson. Would you suggest, when you say you are 
aware, that eventually that will happen? That will be within 
the next 30 years?
    Mr. Aloise. Some of it probably, yes.
    Mr. Matheson. OK. That is helpful. I would just say for the 
record, I think 30 years isn't that long amount of time, 
myself, but I think that this is a number that is moving around 
but whether it is 30 years or whether it is 20 years or whether 
it is 40 years, I think we have a certain amount of capacity in 
this country for our low-level waste and we ought to put that 
into consideration of this bill.
    Mr. Aloise, just for the record, let me ask some real quick 
questions. How many low-level waste storage facilities are 
there in the United States?
    Mr. Aloise. Excuse me?
    Mr. Matheson. How many low-level waste storage facilities 
are there in the United States? Low-level radioactive waste. I 
assume there are three. That is what I have assumed.
    Mr. Aloise. Oh, the three disposal facilities?
    Mr. Matheson. Three disposal sites.
    Mr. Aloise. Yes. I am sorry.
    Mr. Matheson. How many of these sites are designated 
storage sites for one of the compacts?
    Mr. Aloise. How many of them belong to compacts?
    Mr. Matheson. How many are designated as storage sites for 
one of the compacts?
    Mr. Aloise. Two, I believe.
    Mr. Matheson. OK. And how many of the three sites regularly 
accept commercial waste from other parts of the country?
    Mr. Aloise. I am not clear on that.
    Mr. Matheson. I assume it is just one. There is only one 
site that takes it outside their compact. It is the Clive site.
    Shifting to Europe, do you know how many low-level waste 
storage facilities are there?
    Mr. Aloise. In Europe?
    Mr. Matheson. In Europe.
    Mr. Aloise. No.
    Mr. Matheson. Do you know how many countries have nuclear 
facilities that produce low-level waste?
    Mr. Aloise. We surveyed 20 countries. We got responses from 
18 that have nuclear facilities.
    Mr. Matheson. Do you know how many of those 18 accept waste 
from other countries?
    Mr. Aloise. I do not.
    Mr. Matheson. Have you done an assessment of the total 
volume of European low-level waste that is in need of disposal?
    Mr. Aloise. No, we didn't look at the volumes.
    Mr. Matheson. Have you done an assessment of the capacity 
that exists in Europe for storing its waste?
    Mr. Aloise. No.
    Mr. Matheson. It is my understanding that GAO spent a lot 
of time looking in Europe at nuclear waste disposal sites.
    Mr. Aloise. Well, what we were looking at is basically how 
they manage their waste.
    Mr. Matheson. OK. That is helpful. You specifically looked 
at the situation in Italy. Is that correct?
    Mr. Aloise. Italy was one of the countries we surveyed.
    Mr. Matheson. Italy shut down its nuclear energy plants 
after the Chernobyl incident over 20 years ago and since that 
time, those last 20 years, I think your testimony indicates 
Italy has not implemented a low-level waste storage site in its 
borders. Do you have a sense if it is--I know you mentioned 
various countries have plans to do this. Is Italy even close to 
licensing a site?
    Mr. Aloise. They had plans, but whether they are close or 
not, we are not clear.
    Mr. Matheson. My understanding is, there is a lot of 
opposition in that country.
    Mr. Aloise. There is.
    Mr. Matheson. Is there any country when you surveyed, those 
18, who indicated that they wanted to take other countries' 
nuclear waste as well?
    Mr. Aloise. We didn't ask that question, sir.
    Mr. Matheson. All right, Mr. Chairman, I will yield back. 
Thank you.
    Mr. Boucher. Thank you, Mr. Matheson.
    The gentleman from Kentucky, Mr. Whitfield, is recognized 
for 5 minutes.
    Mr. Whitfield. Thank you very much.
    Mr. Creamer, how many other countries accept low-level 
waste from other countries today?
    Mr. Creamer. There are countries who take it in for 
recycling. For example, Sweden is the other location that is 
just like Bear Creek that has an incinerator and a metal melt 
facility. They bring the waste into that country. They process 
it but they do send the residuals back to the country of origin 
rather than leave the waste there. But France and the U.K. both 
have a long history of accepting high-level waste for recycling 
and then they store it for quite a long period of time in the 
tens to hundred years, the waste that comes off of that, but 
ultimately it would also be shipped back to the country of 
origin. But both France and the U.K. have a long history of 
taking nuclear material, all the rest of the countries and the 
U.K.'s spent nuclear fuel, high-level waste and recycling it.
    Mr. Whitfield. Now, you had mentioned in your testimony 
that your company is doing a lot with other countries to help 
them develop the capability to----
    Mr. Creamer. It is not unlike the first project. The first 
time that the New York Port Authority wanted to clean up the 
port in the New York Harbor that had contaminated PCBs and 
dioxins, we did the first project there and it did not stay in 
New York or New Jersey. After we taught them how to it and 
showed them how reasonable it was to do it, we were able to 
establish facilities right there in the Port of New York, and 
if you go up to the big mall in Elizabeth, New Jersey, it is 
built on dredge spoils that I did in a previous life before I 
got in the radioactive business, when I was in the chemical 
waste business, where we pulled out dioxins and PCBs and taught 
New York and New Jersey how to be able to do that by teaching 
them by example, which is what we hope to be able to do here.
    Mr. Whitfield. And you are working with several other 
countries right now?
    Mr. Creamer. Several other countries around the world. That 
is correct.
    Mr. Whitfield. Now, obviously with a company like 
EnergySolutions, you are always looking out into the future, 
and I know you are already thinking about when the Clive 
facility reaches its capacity. How difficult is it to come up 
with additional storage space and the regulatory process? How 
difficult is that and complex is that?
    Mr. Creamer. I think it is important to note that the Clive 
facility is one square mile less 100 acres which has a DOE 
disposal site on it that the DOE sited for a major cleanup that 
was uranium mill tailings that was left in downtown Salt Lake 
City back in the middle 1980s, they created it, so it is 
actually 540 acres in size. That 540 acres will handle all of 
the radioactive material that is currently in the United States 
today. I mean, if you take everything that will not go to 
existing DOE sites, if you take that, you do that and you still 
have extra capacity. The one nice thing about low-level 
radioactive waste, it is not a large volume. I mean, you need 
to have regional facilities because it is hard--from a cost 
standpoint, it is hard to run little tiny sites and properly 
regulate small little sites and so that is why the other 
compacts haven't been able to site sites. They have had NIMBY 
problems. They have issues. But all of the radioactive waste in 
America that is currently here today and for many, many years 
into the future as the new designs that Westinghouse and GE 
have for new reactors, they create much less waste than the old 
plants do and so we have significant capacity just there in 
that one square mile. And we every day are creating less and 
less waste.
    Mr. Whitfield. I don't want to get into the lawsuit, but 
just out of curiosity, in this May 18th letter that the 
Northwest Compact wrote, what allegations or what facts do they 
base it on that there is no authorized legally acceptable 
facility to take care of this waste?
    Mr. Creamer. We have a disagreement with the Northwest 
Compact, and that is why when we talk about lawsuits, we are 
not suing for damages, we are not doing anything like that. 
This is a declaratory judgment which was set up by the founding 
fathers where when you have a disagreement over a Federal law, 
you go to a Federal court and you ask that Federal court to 
declare what the law says, and that is what we asked for a 
clarification from the court. Does the Northwest Compact have 
authority over Clive or does it not? We believe it does not. We 
believe the law specifically talks about facilities that were 
created for the compact. This is not a compact facility. This 
is a private facility that just happens to be inside the 
boundary of the Northwest Compact but it is not a compact 
facility, and we think that is what the law says. They have a 
differing opinion and we just plain asked the court. We are not 
suing anybody for money. We are not doing anything like that. 
We just basically asked the court to tell us in their opinion--
to rule and say what the law says and that is all we have 
asked. It has got nothing to do with money. It is nothing to do 
with hostilities. You know, it is just us asking a question.
    Mr. Whitfield. Mr. Chairman, I see my time is expired.
    Mr. Boucher. Thank you, Mr. Whitfield.
    The gentleman from Texas, Mr. Hall, is recognized for 5 
minutes.
    Mr. Hall. I thank you, Mr. Chairman.
    Mr. Creamer, have you read the GAO highlights Mr. Aloise 
put out--why the GAO did this study? Have you seen that?
    Mr. Creamer. Yes, I have.
    Mr. Hall. And he points out the Nuclear Regulatory 
Commission ranks low-level radioactive waste according to 
hazard exposure, Class A, B, and C and greater than Class C. 
What are we talking about here? Which of those levels do you 
have?
    Mr. Creamer. At Clive, we can only take Class A. I was 
hoping there would be an exit sign in this room and a smoke 
alarm, there is a small smoke detector over here on this side 
but I am not sure it is one of them, so you get an idea of what 
we take at Clive. We take the clothing that the people wear 
around power plants. We take debris that comes from a power 
plant.
    Mr. Hall. And that is Class A?
    Mr. Creamer. That is Class A. For example, the smoke alarm 
in your bedroom in your house, it has a little tiny source in 
it that if you pull that source out all by itself, it has too 
much radioactivity to come to Clive. The exit signs if you go 
to Europe, the exit signs, every exit sign that comes out of a 
building there has to be pulled out and kept separately from 
everything else because that exit sign has a radioactive 
isotope in it. That radioactive little source that is inside 
that is too hot to go to Clive. I mean, we take--Class A low-
level waste is the lowest of low level.
    Mr. Hall. And that is the largest in volume of----
    Mr. Creamer. It is by far the largest, and so we handle 
large volumes but very, very small amounts of radioactivity.
    Mr. Hall. And what the GAO found, as I read it here, they 
state in contrast, disposal availability for domestic Class A 
waste is not a problem in the short or longer term, and that is 
your opinion too?
    Mr. Creamer. That is our opinion also.
    Mr. Hall. Well, how long have you been recycling 
international metals in Tennessee and disposing of the waste in 
Utah?
    Mr. Creamer. Recycling for 12 years, disposing for 8 years.
    Mr. Hall. And I think you stated that in 2006 you were 
granted a license to import up to 6,000 tons of the same type 
of material from Canada that you are seeking to import from 
Italy?
    Mr. Creamer. That is correct.
    Mr. Hall. Were the States of Utah and Tennessee and the 
Northwest Compact aware that the international material was 
being disposed of at the Clive, Utah, facility?
    Mr. Creamer. Yes.
    Mr. Hall. And do you want to expound on that?
    Mr. Creamer. Well, on several different occasions, in fact 
an interesting one in 1998, there was an import license 
approved to bring waste into the State of Washington and do 
some work on it, then dispose of it in the Richland facility up 
there, which is the compact facility. That Taiwanese waste got 
stranded, sat there for 10 years because a company didn't have 
the financial wherewithal to handle it, and so it was recently 
purchased by another company and the Northwest Compact asked us 
to take that Taiwanese waste to Clive because they didn't want 
to take it to their facility there but it was actually 
originally approved to go to that facility in Washington, so 
that is where we got the Taiwan waste from.
    Mr. Hall. And I am trying to lead up to the most important 
question I think I will ask. Did Tennessee or Utah or the 
Northwest Compact ever object to international material being 
processed in Tennessee or disposed of in Utah----
    Mr. Creamer. No.
    Mr. Hall [continuing]. To your knowledge ever?
    Mr. Creamer. No.
    Mr. Hall. And in fact, you know of several instances where 
the States and the compact wrote to the NRC and said they had 
no issues with this?
    Mr. Creamer. That is correct, and I think there are 
attachments to my testimony that indicate that.
    Mr. Hall. And I guess the main question, I think the one 
everybody is probably most interested in and the question that 
needs to be answered, what service do you give to the rest of 
this country, to the United States and does EnergySolutions 
have enough capacity at your disposal facility in Utah to 
handle the waste generated here in the United States and keep 
doing what you are doing?
    Mr. Creamer. I believe we provide a great service. The 
chief nuclear officer from Exelon, who has a lot of plants in 
the Congressman from Illinois's district, he called our 
governor about 3 years ago and he says Clive is a national 
asset, it is incredibly important to our--you know, it is easy 
to store Class B and C waste because of the very, very small 
volume. It is very hard to store onsite Class A waste because 
it is a much larger volume which you have to have. We are 
important to this industry. We have tried to bring great 
stability, and I think if you talk to all of our customers, you 
will find we have brought great stability in the last 3 years 
to this country's nuclear industry and thus the nuclear 
renaissance, which I personally firmly believe we need to do.
    Mr. Hall. And if we got to the position where you couldn't 
for some unforeseen situation take care of the foreign waste 
coming in and the domestic waste, where would your loyalty lie?
    Mr. Creamer. Maybe I should show you--my staff made this 
pretty picture. That is the Clive facility all the way to the 
top. This is how much we filled because we had some huge, big 
DOE projects in the past that filled up, that took a lot of it, 
but that is the remaining capacity. The Italy waste is about 
that much. That is what would go to Clive, I mean, just a 
pinch.
    Mr. Hall. Can you say ``that much'' to where we can get it 
in the record?
    Mr. Creamer. It is three ten-thousandths.
    Mr. Hall. And that is a conservative estimate?
    Mr. Creamer. That is a conservative estimate. We do not 
want to bring wholesale radioactive waste into this Nation. All 
we want to do is use it to try to position our company to have 
an American company build a strong position internationally and 
what I believe is one of the most important technologies and 
one of the most important industries.
    Mr. Hall. So a lot of the questions that you have been 
asked have indicated that you are bringing waste into this 
country, you are attracting waste but you are also taking care 
of it.
    Mr. Creamer. Well, no one does--I mean, we have the world's 
best facilities. There is no question about it.
    Mr. Hall. So instead of a problem, aren't you part of the 
solution?
    Mr. Creamer. Well, that is our tag line, EnergySolutions, 
we are part of the solution.
    Mr. Hall. I guess that might be a dang good one to quit on.
    Mr. Boucher. Thank you very much, Mr. Hall.
    The gentleman from Illinois, Mr. Shimkus, is recognized for 
5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. It is an interesting 
note, we are talking about Italy. I read a story on the Floor 
debate. I have been really involved in the energy supply debate 
and Italy is moving to coal in the era of Kyoto because we need 
electricity and we need energy and maybe they ought to think 
about restarting of their nuclear power plants and getting back 
into that business. Congressman Hall kind of took some of the 
lines but the reason why we don't--since it is such a bulky 
material really from a business perspective, the cost-benefit 
analysis of a consolidated location is cheaper and safer. that 
is kind of my analysis.
    Let us assume, and I was going to ask, is that little thing 
behind that, is that anything----
    Mr. Creamer. That is a shield block. That is the recycled 
metals. In real life, they are a meter by a meter by a half a 
meter. Today we sell every one of them that we can make. Our 
metal melt facility only operates about 2 months a year. That 
is all the metal that we get to melt there is about 2 months a 
year worth. Every one of these today is going to Japan and 
going in their new big accelerator that is going over there as 
being reused in the nuclear industry for shielding sources of 
radioactivity, but that is a little shield block.
    Mr. Shimkus. Thanks. I was wondering what that big thing 
was for the whole hearing. I am glad Mr. Hall asked and you 
were able to use it in response. If that were to fill up and 
since you have international exposure and international 
expertise, I mean, assuming 30, 40 years from now, however 
long, and we eventually get there, and the NIMBY factor kicks 
in in the United States, with your international exposure, 
could you see peddling this ability to other countries for site 
location and storage?
    Mr. Creamer. We are working--we believe in regional sites 
and we are working both in Asia and in Europe trying to find 
willing hosts who would be willing to accept these types of 
things. We think that is the proper thing to be done and we are 
working very hard to do it. But today we have world-class 
facilities that we believe can better position ourselves to 
help other countries, to show other countries how safe this is 
and that it can be done by utilizing these world-class 
facilities.
    Mr. Shimkus. So in the future, that little, I don't know, a 
sugar packet or whatever----
    Mr. Creamer. It was a salt packet. The sugar packet was too 
big.
    Mr. Shimkus. That could be the United States to some 
foreign facility 40, 50 years from now?
    Mr. Creamer. Well, there has been stuff leaving the United 
States. Italy, for example, has accepted back in the 1980s, 
because they were going to build a reprocessing plant, they 
accepted 5 tons of spent nuclear fuel from a plant that was up 
in Minnesota; the Elk Creek plant. That 5 tons of fuel still 
sits in Italy. They still have it from the United States. And 
one gram of that spent nuclear fuel has more radioactivity than 
this 20,000 tons we are talking about, just so it is clear.
    Mr. Shimkus. And you have life-of-plant agreements with 
nuclear plants in Illinois. Is that correct?
    Mr. Creamer. Exelon was the first one that signed for all 
17 of their plants.
    Mr. Shimkus. And are the EnergySolutions U.S. processing--
let me ask, people are trying to say don't bring this into the 
energy debate, it is not part of the energy debate. Would you 
disagree with that? Should this be part of, if we want to bring 
more supply on this country, is the ability to have this 
location critical?
    Mr. Creamer. I think Clive is critical to the U.S. nuclear 
utilities. I think they would tell you the same thing. We also 
believe that what we are talking about doing here, we think 
strong U.S. companies. America has kind of gone to sleep the 
last 30 years. EnergySolutions has brought together nine 
companies over the last 3 years to try to build a company large 
enough in the United States to be able to be a long-term player 
and a solid player that could play on the international market. 
Today the French, the Japanese----
    Mr. Shimkus. Let me ask a question because my time is 
running short. Are you involved in any negotiations with China?
    Mr. Creamer. China is looking at our vitrification 
technology. We have the Number 1 vitrification technology in 
the world.
    Mr. Shimkus. I have been quoting China as planning to build 
47 new nuclear power plants in the upcoming years, so this 
would segue into that debate, would it not?
    Mr. Creamer. We have been consulting with them on how to 
handle their high-level waste right now.
    Mr. Shimkus. OK, Mr. Chairman, thank you. I yield back.
    Mr. Boucher. Thank you, Mr. Shimkus.
    The gentleman from Tennessee, Mr. Gordon, is recognized for 
5 minutes.
    Mr. Gordon. Thank you, Mr. Chairman. We have gone a long 
time, so let me just make a few summary statements here.
    First of all, I want to make it very clear that I am not 
antinuclear energy and I am certainly not anti-EnergySolutions. 
I think they serve a very valid, important function for our 
country. It was interesting, I just heard--Mr. Shimkus and Mr. 
Creamer were just talking about how important Clive is to 
really the nuclear industry in this country. It is absolutely 
important. It may just be very--the radioactivity that goes 
there may be very minor but there is no place else for it 
really to go. If it shuts down, it shuts down everything else. 
And so that is why this issue is very important and that is why 
I am concerned about losing that capacity and what impact it is 
going to have on the nuclear industry here. And again, I don't 
see why we would want to give up even 5 percent, but Mr. 
Creamer, you said you wanted to make this voluntary. Your 
successor may not agree with you. Your board of directors may 
say that they have a responsibility to their shareholders and 
not go along with this. So that is a little loosey goosey.
    Also just to point out, you did mention that there are 
other locations, a couple other locations in the world that 
reprocess. Yes, they reprocess but they send it back. We are 
the only country, the United States of America is the only 
country in the world that accepts foreign low-level radioactive 
waste. I think Mr. Hall had read some nice comment that the 
governor or Utah had made about your company a year ago. I will 
just remind everyone that that same governor has instructed his 
member on the board to vote against allowing foreign 
radioactive waste to come in here and you are suing him or you 
are suing them now, or you are asking for a declaratory 
judgment, which means you are going to court to do that. You 
say in the 1980s that Italy took some of our waste. Well, here 
in 2007, there is a major Italian protest with thousands of 
people coming out saying we don't want any low-level 
radioactive waste, send it somewhere else. So that is certainly 
not going to happen.
    And finally, Mr. Chairman, you were trying to get to the 
point and you couldn't really get to it, how much of that 
foreign waste is out there. Nobody really knows but let me give 
you some information. There are 197 operating generating 
facilities in Europe and there are 90 more that already shut 
down or will soon be shut down. That is only in Europe. It 
doesn't count Mexico, Canada, or elsewhere. You know, 30 years, 
if I was in as good shape as Mr. Hall, 30 years is a way down 
the road, but I am getting a little shorter in the tooth here, 
or longer in the tooth, and 30 years to me versus 30 years to 
my daughter is two different things. This amount we have got 
there, again, that is also very loosey goosey. Just last 
November, EnergySolutions in their prospective said that there 
was only 19 years left. Mr. Aloise in his testimony said that 
basically he is building that on information that he got from 
EnergySolutions and he is not taking into account foreign waste 
coming in, not taking into account an increase in the amount of 
waste produced in this country, only based on 1 year, an 
anomaly, I would say, of a year where there was a smaller 
amount. So we don't know how much it is, whether it is 10, 
whether it is 19, whether it is 30, but what we do know is, 
there is a finite amount of space and when that finite space is 
gone, our nuclear industry shuts down in this country.
    For that reason, Mr. Chairman, I would again say to you, 
NRC has said they can't do anything, it has to be the local 
compacts. The local compact says OK, we want to do something, 
stop it, and then EnergySolutions says we are going to sue you 
so you can't do that. That is why this legislation is needed.
    Thank you for providing us that opportunity in the hearing 
today, and I yield back the balance of my time.
    Mr. Boucher. Well, in fairness to Mr. Creamer, I know what 
he wants to say. Let me just give him an opportunity to 
reaffirm the commitment he has made, that EnergySolutions is 
willing to reduce to a binding legal obligation the 5 percent 
capacity limitation that he previously announced.
    Mr. Gordon. Subject to his board's approval.
    Mr. Creamer. No, I have my board approval. I have my board 
approval. We will put it in the license. There is no question 
about that.
    Mr. Gordon. And could that license be renegotiated later?
    Mr. Creamer. I guess it could but it would be very, very 
difficult to do. It would be very difficult to do. We all live 
a certain life and we die but I don't see that ever changing.
    Just a couple of other things. GE has shipped some blades 
from power plant waste that they take back in some of their 
stuff that has been shipped to Kazakhstan and the residuals 
from the recycling in Kazakhstan has stayed in Kazakhstan. So 
there is other--we are not the only one who has taken it. It 
was U.S. waste that went to Kazakhstan. This has happened in 
the last few years.
    Mr. Gordon. Any other Third World countries that you want 
to cite?
    Mr. Creamer. No, that is the only one I know.
    Mr. Gordon. OK.
    Mr. Creamer. You know, the 19 years versus the 30 years, we 
closed down the Rocky Flats facility and the Fernald facility. 
We took all the waste from those two DOE facilities and that is 
what made 2005 and 2006 big years. When you file an S-1, they 
want everything. The attorneys get on you to make sure 
everything is perfect, so if you take our remaining capacity 
and divide it by 2006, which is a bigger year caused by the 
final closure of Rocky Flats and Fernald in Ohio, that is what 
caused that year to come down, but on an ongoing basis, we have 
looked at it 20 times over because we have made specific 
contractual obligations to those 83 power plants that they do 
have capacity for their decommissioning, whether it be 30 years 
or 60 years from now. They have the capacity committed to them 
no matter how long it is when it comes out and so we have taken 
care of that and done that. So in our own way, we try very 
hard.
    Mr. Gordon. And what about those other 30 or so plants that 
appear to be coming up in the next few years?
    Mr. Creamer. We would hope that we would be able to handle 
those also.
    Mr. Boucher. At that point I think we can say we have heard 
this matter today. I want to express appreciation to our 
witnesses for sharing their views with us and answering our 
questions, and this hearing stands adjourned.
    [Whereupon, at 12:32 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T4899.026
    
    [GRAPHIC] [TIFF OMITTED] T4899.027
    
    [GRAPHIC] [TIFF OMITTED] T4899.028
    
    [GRAPHIC] [TIFF OMITTED] T4899.029
    
    [GRAPHIC] [TIFF OMITTED] T4899.030
    
    [GRAPHIC] [TIFF OMITTED] T4899.031
    
    [GRAPHIC] [TIFF OMITTED] T4899.032
    
    [GRAPHIC] [TIFF OMITTED] T4899.033
    
    [GRAPHIC] [TIFF OMITTED] T4899.034
    
    [GRAPHIC] [TIFF OMITTED] T4899.035
    
    [GRAPHIC] [TIFF OMITTED] T4899.036
    
    [GRAPHIC] [TIFF OMITTED] T4899.037
    
    [GRAPHIC] [TIFF OMITTED] T4899.038
    
    [GRAPHIC] [TIFF OMITTED] T4899.039
    
    [GRAPHIC] [TIFF OMITTED] T4899.040
    
    [GRAPHIC] [TIFF OMITTED] T4899.041
    
    [GRAPHIC] [TIFF OMITTED] T4899.042
    
    [GRAPHIC] [TIFF OMITTED] T4899.043
    
    [GRAPHIC] [TIFF OMITTED] T4899.044
    
    [GRAPHIC] [TIFF OMITTED] T4899.045
    
    [GRAPHIC] [TIFF OMITTED] T4899.046
    
    [GRAPHIC] [TIFF OMITTED] T4899.136
    
    [GRAPHIC] [TIFF OMITTED] T4899.137
    
    [GRAPHIC] [TIFF OMITTED] T4899.138
    
    [GRAPHIC] [TIFF OMITTED] T4899.139
    
    [GRAPHIC] [TIFF OMITTED] T4899.140
    
    [GRAPHIC] [TIFF OMITTED] T4899.141
    
    [GRAPHIC] [TIFF OMITTED] T4899.142
    
    [GRAPHIC] [TIFF OMITTED] T4899.143
    
    [GRAPHIC] [TIFF OMITTED] T4899.144
    
    [GRAPHIC] [TIFF OMITTED] T4899.145
    
    [GRAPHIC] [TIFF OMITTED] T4899.146
    
    [GRAPHIC] [TIFF OMITTED] T4899.147
    

                                 <all>

</pre></body></html>
